<html>
<title> - FROM EDGE TO CORE: PERSPECTIVE ON INTERNET PRIORITIZATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       FROM EDGE TO CORE: PERSPECTIVE ON INTERNET PRIORITIZATION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2018

                               __________

                           Serial No. 115-120
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-393 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a>                         


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 7_____

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     2
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                               Witnesses

Richard Bennett, Founder, High Tech Forum........................    12
    Prepared statement...........................................    14
    Answers to submitted questions...............................   181
Peter Rysavy, President, Rysavy Research.........................    55
    Prepared statement...........................................    56
Paul W. Schroeder, Director, Public Policy and Strategic 
  Alliances, Aira Tech Corporation...............................    65
    Prepared statement...........................................    67
Matthew F. Wood, Policy Director, Free Press and the Free Press 
  Action Fund....................................................    79
    Prepared statement...........................................    81

                           Submitted Material

Letter of April 16, 2018, from Angie Kronenberg, Chief Advocate 
  and General Counsel, INCOMPAS, to Mrs. Blackburn and Mr. Doyle, 
  submitted by Mr. Doyle.........................................   143
Statement of American Academy of Pediatrics by Colleen A. Kraft, 
  President, April 16, 2018, submitted by Mr. Doyle..............   150
Letter of April 16, 2018, from Elizabeth Mendenhall, President, 
  National Association of Realtors, to Mrs. Blackburn and Mr. 
  Doyle, submitted by Mr. Doyle..................................   153
Letter of April 16, 2018, from Mei Wa Kwong, Executive Director, 
  Center for Connected Health Policy, to Mrs. Blackburn and Mr. 
  Doyle, submitted by Mr. Doyle..................................   155
Letter of April 26, 2017, from Engine, et al., to Ajit Pai, 
  Chairman, Federal Communications Commission,\1\ submitted by 
  Ms. Clarke
Article of April 17, 2018, ``Prioritization: Moving past 
  prejudice to make internet policy based on fact,'' by Roslyn 
  Layton, AEI, submitted by Mr. Flores...........................   159
Letter of April 16, 2018 from Jeffrey R.L. Smith, Vice President 
  of Public Policy, American Medical Informatics Association, to 
  Mrs. Blackburn and Mr. Doyle, submitted by Mr. Ruiz............   163

----------
\1\ The information has been retained in committee files and also is 
available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108168.
Letter of April 17, 2018, from Jonathan Schwantes, Senior Policy 
  Counsel, Consumers Union, to Mrs. Blackburn and Mr. Doyle, 
  submitted by Mr. Doyle.........................................   167
CloudFlare tweets, November 22, 2017, submitted by Mrs. Blackburn   170
Report of the Information Technology and Innovation Foundation, 
  ``Designed for Change: End-to-End Arguments, Internet 
  Innovation, and the Net Neutrality Debate,'' September 2009, by 
  Richard Bennett,\1\ submitted by Mrs. Blackburn
Report of the Broadband Internet Technical Advisory Group, 
  ``Differentiated Treatment of Internet Traffic,'' October 
  2015,\1\ submitted by Mrs. Blackburn
Article of April 2, 2018, ``Paid prioritization: Debunking the 
  myth of fast and slow lanes,'' by Daniel Lyons, AEI, submitted 
  by Mrs. Blackburn..............................................   171
Declaration of Peter Rysavy, Rysavy Research, July 17, 2017,\1\ 
  submitted by Mrs. Blackburn
Report of Rysavy Research and Mobile Future, ``How Wireless is 
  Different: Considerations for the Open Internet Rulemaking,'' 
  September 12, 2014,\1\ submitted by Mrs. Blackburn
Article of May 22, 2017, ``Reclassification and Investment: An 
  Analysis of Free Press' `It's Working' Report,'' by Dr. George 
  S. Ford, Phoenix Center Perspectives, submitted by Mrs. 
  Blackburn......................................................   175

----------
\1\ The information has been retained in committee files and also is 
available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108168.

 
       FROM EDGE TO CORE: PERSPECTIVE ON INTERNET PRIORITIZATION

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:16 a.m., in 
room 2322, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Guthrie, Olson, Bilirakis, Johnson, Long, Flores, 
Brooks, Collins, Walters, Costello, Walden (ex officio), Doyle, 
Welch, Clarke, Loebsack, Ruiz, Dingell, Eshoo, Engel, Matsui, 
McNerney, and Pallone (ex officio).
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Daniel Butler, Staff Assistant; 
Robin Colwell, Chief Counsel, Communications and Technology; 
Kristine Fargotstein, Detailee, Communications and Technology; 
Sean Farrell, Professional Staff Member, Communications and 
Technology; Adam Fromm, Director of Outreach and Coalitions; 
Elena Hernandez, Press Secretary; Tim Kurth, Deputy Chief 
Counsel, Communications and Technology; Lauren McCarty, 
Counsel, Communications and Technology; Austin Stonebraker, 
Press Assistant; Evan Viau, Legislative Clerk, Communications 
and Technology; Hamlin Wade, Special Advisor, External Affairs; 
Jeff Carroll, Minority Staff Director; Jennifer Epperson, 
Minority FCC Detailee; David Goldman, Minority Chief Counsel, 
Communications and Technology; Jerry Leverich III, Minority 
Counsel; Jourdan Lewis, Minority Staff Assistant; Dan Miller, 
Minority Policy Analyst; Andrew Souvall, Minority Director of 
Communications, Outreach and Member Services; and C.J. Young, 
Minority Press Secretary.
    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order.
    You notice that we are starting just a couple of minutes 
late. We understand that the Environment hearing downstairs 
started a couple of minutes late, and we are trying to 
accommodate the chairman of the full committee and the ranking 
member of the full committee to get up here for their opening 
statements.
    I now recognize myself for 5 minutes for an opening 
statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Good morning, everyone, and to our witnesses, thank you for 
being here, and welcome. We are here to talk about 
prioritization. Not just paid prioritization--all 
prioritization online.
    Despite what some of my colleagues sometimes seem to think, 
prioritization is not a dirty word. The internet, in fact, is 
based on it.
    In the net neutrality conversation, there is a common 
misconception that the internet is one big highway where all 
the cars travel at the same speed and we cannot allow for any 
fast lanes to exist without causing a big traffic jam for 
everybody else.
    It is something like the picture that we are going to put 
up on the screen. It ran into a jam.
    [Laughter.]
    Mrs. Blackburn. Yes, we are in need of some prioritization 
here. OK. No, that's the wrong picture. See if we can--OK.
    Our witnesses today know that this could not be further 
from the truth, and the next picture we are going to put up in 
fact is probably a lot closer to reality, but it is still an 
oversimplified idea of the internet: different connections, 
agreements, prioritization, depending on the needs.
    And the amazing new capabilities that we will experience on 
next-generation networks will be realized not only through 
innovation in the chips and the servers and the infrastructure, 
but also through even more efficient and effective 
prioritization.
    I would also point out that, in real life, all sorts of 
interactions are prioritized every day. Many of you sitting in 
this room right now paid a line-sitter to get priority access 
to this hearing.
    In fact, it is commonplace for the Government itself to 
offer priority access to services. If you have ever used 
Priority Mail, you know this to be the case.
    And what about TSA pre-check? It just might have saved you 
time as you traveled today. If you define paid prioritization 
as simply the act of paying to get your own content in front of 
the consumer faster, prioritized ads or sponsored content are 
the basis of many business models online, as many of our 
Members pointed out during the Facebook hearing last week.
    Prioritization is sometimes crucial from a public policy 
standpoint. Just as we all want the ambulance and the fire 
truck to be prioritized over the rest of the traffic on the 
highway, there is a need for voice packets to be prioritized 
over data packets to make sure that your 9-1-1 calls get 
through first, and there are lots of other examples where we 
can all agree that certain data and certain applications should 
be prioritized on the network.
    One of our witnesses is pioneering a technology to provide 
real-time audio support to the visually impaired, describing 
the surroundings and the nonverbal interactions taking place 
around the user.
    Other examples that our witnesses will discuss today 
include telemedicine and autonomous vehicles. Prioritization of 
data on the network is not unique or uniquely harmful.
    It may be an uphill climb, but what we are trying to do 
with this hearing is to leave aside the simplistic ``fast 
lane'' talking points and kick off a more realistic discussion 
on the subject.
    My net neutrality bill left out the old language banning 
all paid prioritization because I believe that we need a more 
nuanced approach and a more thorough and thoughtful discussion.
    For the Government to consider a ban on any prioritization 
on the internet, paid or unpaid, we need a better understanding 
of what specific harmful conduct we are trying to address and a 
better understanding of how to leave the door open for the 
beneficial prioritization that's necessary to keep the internet 
as we know it working and to bring even more benefits to 
consumers.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good morning, everyone, and welcome to our witnesses. We 
are here to talk about prioritization. Not just paid 
prioritization--all prioritization online. Despite what some of 
my colleagues sometimes seem to think, prioritization is not a 
dirty word. The Internet is based on it.
    In the net neutrality conversation there is a common 
misconception that the Internet is one big highway, where all 
the cars travel at the same speed and we cannot allow for any 
fast lanes or toll lanes to exist without causing a big traffic 
jam for everybody else. Something like this picture:
    *Picture of traffic jam*
    Our witnesses today know that this could not be further 
from the truth. This picture is a lot closer to reality, in 
fact it probably still gives you an oversimplified idea of the 
internet. Different connections, different agreements, and 
different prioritization, depending on needs.
    *Picture of mixing bowl interchange*
    And the amazing new capabilities that we will experience on 
next generation networks will be realized not only through 
innovation in the chips and the servers and the infrastructure, 
but also through even more efficient and effective 
prioritization.
    I would also point out that in real life, all sorts of 
interactions are prioritized every day. Many of you sitting in 
this room right now paid a line-sitter to get priority access 
to this hearing. In fact, it is commonplace for the Government 
itself to offer priority access to services. If you have ever 
used Priority Mail, you know this to be the case. And what 
about TSA pre-check? It just might have saved you time as you 
traveled here today. If you define paid prioritization as 
simply the act of paying to get your own content in front of 
the consumer faster, prioritized ads or sponsored content are 
the basis of many business models online, as many of our 
Members pointed out at the Facebook hearing last week.
    Prioritization is sometimes crucial from a public policy 
standpoint. Just as we all want the ambulance and the fire 
truck to be prioritized over the rest of the traffic on the 
highway, there is a need for voice packets to be prioritized 
over data packets to make sure that your 9-1-1 call gets 
through first. And there are lots of other examples where we 
can all agree that certain data and certain applications should 
be prioritized on the network. One of our witnesses is 
pioneering a technology to provide real-time audio support to 
the visually impaired, describing the surroundings and the 
nonverbal interactions taking place around the user. Other 
examples that our witnesses will discuss today include 
telemedicine and autonomous vehicles.
    Prioritization of data on the network is not unique, or 
uniquely harmful. It may be an uphill climb, but what we are 
trying to do with this hearing is to leave aside the simplistic 
``fast lane'' talking points and kick off a more realistic 
discussion on the subject. My net neutrality bill left out the 
old language banning all paid prioritization because I believe 
that we need a more nuanced approach, and a more thorough and 
thoughtful discussion. For the Government to consider a ban on 
any prioritization on the Internet, paid or unpaid, we need a 
better understanding of what specific harmful conduct we are 
trying to address, and a better understanding of how to leave 
the door open for the beneficial prioritization that's 
necessary to keep the Internet as we know it working, and to 
bring even more benefits to consumers.

    Mrs. Blackburn. Now I recognize the ranking member, Mr. 
Doyle, for 5 minutes for an opening statement.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, for holding this hearing 
and thank you to the witnesses for appearing before us. I'd 
like to in particular thank Matt Wood, a proud Pittsburgher, 
for being here today.
    This subcommittee is once again discussing net neutrality 
and the fallout from Chairman Pai's repeal of the 2015 Open 
Internet Order.
    This short-sighted act has created an uncertain landscape 
where innovators and entrepreneurs trying to develop new 
services, applications, and devices can be taxed, tolled, or 
blocked at any time by an ISP.
    Prioritization practices that were once required to meet 
the standard of reasonable network management as judged by 
Federal experts and network engineering, telecommunications, 
and competition policy at the FCC will now be determined by an 
ISP's bottom line.
    As I've talked to companies large and small that developed 
and deployed new applications in the wake of the 2015 net 
neutrality rules, their message was clear: that the certainty 
created by the rules was stoking investment and giving 
certainty to investors and that consumers were benefitting from 
these new offerings.
    A number of companies I talked with were working to deploy 
services that directly competed with ISPs' own offering at 
lower prices, bringing what we can all agree is a much needed 
competition to a stagnant marketplace.
    I am deeply concerned that, as we move forward in a world 
without the open internet rules, ISPs will once again act in 
anticompetitive ways intended to tamp down competition and 
consolidate their hold over their consumers.
    We have already seen ISPs zero-rate data from their own 
services and their affiliates while forcing users to either 
limit usage on competing apps or pay costly overage fees.
    If we look at the history of the internet before net 
neutrality, we find a number of instances where ISPs used their 
market position to stifle innovation and prevent competitors 
from bringing new products to market, all while coming to 
Congress and the Government arguing that they were only 
thinking about the consumer.
    Today, it seems we are adding another chapter to that book. 
Today, we are talking about the prioritization of the internet 
content.
    If the testimony of a number of our witnesses is to be 
believed, paid prioritization can bring great benefits to the 
internet. They claim that the coming flood of data can only be 
dealt with by prioritizing it and creating incentives and 
opportunities for Web sites and edge providers to pay to get 
their packets to consumers before their competitors.
    Well, frankly, I don't believe it. We have heard these 
arguments before. The truth is, giving ISPs the ability to play 
gatekeeper only benefits the ISPs and their shareholders, and 
it significantly hurts innovators and consumers.
    More than that, it fundamentally undercuts the level 
playing field and open marketplace that defines the internet 
economy.
    Now, I have a bill that has 160 co-sponsors in the House 
with companion legislation with bipartisan support in the 
Senate to fix this mess.
    Our CRA would reinstate the 2015 open internet rules and 
restore the FCC to its expert oversight role over ISP network 
practices.
    When you look at the polling on this issue, these rules 
have overwhelmingly bipartisan support with a vast majority of 
Democrats, Republicans, and Independents, and I hope to work 
with my friends on the other side of the aisle to make this 
bill bipartisan as well.
    Madam Chair, I'd also like to raise a process issue leading 
up to today's hearing. Mr. Bennett, who was first to submit his 
testimony, amended his submission yesterday afternoon in 
meaningful ways.
    I am concerned that many of the changes to Mr. Bennett's 
written submission were of a substantive and factual nature, 
and that is of great concern to us.
    I don't believe the committee should get into the practice 
of allowing such last-minute changes. When we have witnesses do 
this, the committee process breaks down, and it also--it leads 
to many of us just questioning whether the testimony will be 
credible.
    I'd also like to note that baseball season is starting here 
in Congress. I had my team out on the field for the first time 
today, and like baseball, these markets cannot function without 
clear rules and a ref to call balls and strikes.
    The word is that ISPs want us to live in one where there is 
no referee and where there are no rules. The game only ends 
when the other team and all the fans go home because they are 
just sick of watching one team playing by their own rules.
    I don't want to live in that world, and neither do the 
American people.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you Madam Chairman for holding this hearing, and 
thank you to the witnesses for appearing before us. I'd like to 
thank Matt Wood, a proud Pittsburgher, for being here in 
particular.
    This subcommittee is once again discussing net neutrality 
and the fallout from Chairman Pai's repeal of the 2015 Open 
Internet Order. This short-sighted act has created an uncertain 
landscape where innovators and entrepreneurs trying to develop 
new services, applications, and devices can be taxed, tolled, 
or blocked at any time by an Internet Service Provider or ISP.
    Prioritization practices that once were required to meet 
the standard of ``reasonable network management,'' as judged by 
Federal experts in network engineering, telecommunications, and 
competition policy at the FCC, will now be determined by an 
ISP's bottom line.
    As I have talked to companies large and small that 
developed and deployed new applications in the wake of the 2015 
net neutrality rules, their message was clear: that the 
certainty created by the rules was stoking investment and 
giving certainty to investors, and that consumers were 
benefiting from these new offerings. A number of companies I 
talked with were working to deploy services that directly 
competed with ISPs' own offerings at lower prices, bringing 
what we can all agree is much-needed competition to a stagnant 
marketplace.
    I am deeply concerned that as we move forward in a world 
without the Open Internet Rules, ISPs will once again act in 
anticompetitive ways intended to tamp down competition and 
consolidate their hold over their customers. We've already seen 
ISPs zero-rate data from their own services and their 
affiliates--while forcing users to either limit usage on 
competing apps or pay costly overage fees.
    If we look at the history of the internet before net 
neutrality, we find a number of instances where ISPs used their 
market position to stifle innovation and prevent competitors 
from bringing new products to market--all while coming to 
Congress and the Government arguing that they were only 
thinking about the consumer. Today we are adding another 
chapter to that book.
    Today, we're talking about the prioritization of Internet 
content. If the testimony of a number of our witnesses is to be 
believed, paid prioritization can bring great benefits to the 
Internet. They claim that the coming flood of data can only be 
dealt with by prioritizing it and creating incentives and 
opportunities for Web sites and edge providers to pay to get 
their packets to consumers before their competitors.
    Frankly, I don't believe it. We've heard these arguments 
before. The truth is that giving ISPs the ability to play 
gatekeeper only benefits the ISPs and their shareholders--and 
significantly HURTS innovators and consumers. More than that it 
fundamentally undercuts the level playing field and open 
marketplace that defines the Internet economy.
    Now I have a bill that has 160 cosponsors in the House and 
companion legislation with bipartisan support in the Senate. To 
fix this mess. Our CRA would reinstate the 2015 Open Internet 
Rules and restore the FCC to its expert oversight role over 
ISPs network practices. When you look at the polling on this 
issue, these rules have overwhelming bipartisan support with 
the vast majority of Democrats, Republicans, and Independents. 
I hope to work with my friends on the other side of the aisle 
to make our bill bipartisan as well.
    Madame Chairman, I'd also like to raise a process issue 
leading up to today's hearing. Mr. Bennett--who was the first 
to submit his testimony--amended his submission yesterday 
afternoon in meaningful ways. I'm concerned that many of the 
changes to Mr. Bennett's written submission were of a 
substantive and factual nature. What's more, the committee 
cannot get in the practice of allowing such last-minute 
changes. When witnesses play games like this it undermines the 
credibility of these proceedings.
    I'd also like to note that baseball season is starting here 
again in Congress, and I had my team out of the field for the 
first time today. Like baseball, these markets cannot function 
without clear rules and a ref to call balls and strikes. The 
world that ISPs want us to live in is one where there is no ref 
and there are no rules. The game only ends when the other team 
and all the fans go home because they are sick of watching one 
team play by their own rules. I don't want to live in that 
world, and neither do the American people.

    Mr. Doyle. Madam Chair, I'd like to ask unanimous consent 
to have the following documents into the record: letters from 
INCOMPAS, the American Academy of Pediatrics, the National 
Association of Realtors, and the Center for Connected Health 
Policy.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you very much, and I yield back.
    Mrs. Blackburn. The gentleman yields back.
    The chairman of the full committee, Mr. Walden, you're 
recognized for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the chairman.
    Thank you all for being here. We appreciate your expert 
testimony as we try to wade into this issue and get to the 
facts.
    This subcommittee in particular has long led the way in 
exercising oversight over the internet. As we will hear today, 
the internet looks nothing like it did when it was first fully 
commercialized back in 1995.
    Back then, networks were in their nascent stage and network 
management presented a different set of problems. But today, 
with users sending over a hundred exabytes of data per month, 
networks have had to continually adapt to manage congestion and 
will need to do so even more adeptly and efficiently in the 
future.
    The development of these networks and their ability to 
handle the ever-growing traffic demands users place on them is 
truly an innovative feat and not one that consumers often think 
about because, when you turn on your computer or unlock your 
phone, the network--the internet just works.
    Because it appears so simple, it's easy for consumers to 
think about the internet connections being managed by their 
ISP--their internet service provider--from one end to the 
other, and for years consumers were told the internet was an 
information superhighway, giving the false impression that all 
internet traffic is moving the same direction on an equal plane 
at the same time.
    We even use the word ``traffic'' to describe the movement 
of information and data across the internet, but it's actually 
a lot more complicated than that.
    The internet is not a highway, where there can be so-called 
fast and slow lanes. The internet is actually a network of 
networks with many layers managing the data that flows across 
it.
    There are applications layers that establish the connection 
and encrypt data. There is the transport layer that prepares 
data for transport. And there is the network layer which 
identifies the packet routing sequence.
    Within these layers there are many different players aside 
from your ISP involved in managing traffic. Devices, software, 
Wi-Fi routers, and content delivery networks, or CDNs, can all 
load, manage, and relay traffic in different ways.
    We will hear from our witnesses today a more in-depth 
explanation of how the internet actually works, not just 
talking points, and the role prioritization plays in operating 
networks.
    But in a basic sense, prioritization has nothing to do with 
traffic speed. Rather, it's putting certain bits over others to 
ensure that all packets arrive to their destination on time.
    A complete ban on prioritization would not permit this and 
would not allow some services and applications to operate 
smoothly. In other words, prioritization currently exists 
across the internet architecture and is necessary to ensure the 
internet functions properly.
    It's also worth noting that, while we have heard a lot from 
our friends at the edge providers about how prioritization is 
bad for business, those operating at the edge pay to prioritize 
traffic every day through the use of various interconnection 
agreements, including CDN.
    In order to facilitate high-demand applications like video 
streaming, many of the most popular content providers don't 
send data over the public internet. Rather, they directly 
interconnect with the CDN, allowing the edge providers' traffic 
to be prioritized to provide a better user experience. It's 
estimated that, by 2021, CDNs will carry 71 percent of global 
internet traffic.
    Today is not the first time this committee has considered 
how to best legislate the issue of prioritization. I released 
draft legislation last Congress that would establish rules of 
the road to ensure the internet remains open to all.
    Similarly, Chairman Blackburn introduced her Open Internet 
Preservation Act at the end of last year. Rather than waste our 
efforts on partisan legislation like the CRA, we hope our 
colleagues on both sides of the aisle will join our effort to 
development legislation that will provide lasting solutions to 
some of the outstanding questions regarding internet traffic 
management.
    What exactly do we mean and what harms are we trying to 
address in restricting internet prioritization, whether paid or 
unpaid, whether the content's affiliated or not?
    So I agree with Chairman Blackburn that, in order to move 
forward toward a long overdue legislative solution, we need to 
be able to have this conversation in a nuanced, in-depth manner 
and figure out a common ground.
    So I look forward to hearing from all the witnesses. I 
would just tell you we have another hearing going on 
downstairs, so a lot of Members have to bounce back and forth. 
But we do have your prepared testimony, and we appreciate your 
participation in this very important discussion about the 
future of the internet.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning, and welcome to our witnesses.
    The Energy and Commerce Committee has the broadest 
jurisdiction in all of Congress. And that jurisdiction includes 
one of the most important social and economic tools in the 
history of the world--the internet.
    This subcommittee in particular has long led the way in 
exercising oversight over the internet.
    As we will hear today, the internet looks nothing like it 
did when it was first fully commercialized in 1995. Back then, 
networks were in their nascent stage and network management 
presented a different set of problems. But today, with users 
sending over 100 exabytes of data per month, networks have had 
to continually adapt to manage congestion, and will need to do 
so even more adeptly and efficiently in the future.
    The development of these networks, and their ability to 
handle the ever-growing traffic demands users place on them is 
truly an innovative feat. And not one that consumers often 
think about--because when you turn on your computer, or unlock 
your phone, the internet just works.
    Because it appears so simple, it is easy for consumers to 
think about their internet connection as being managed by their 
Internet Service Provider, or ISP, from end to end. And for 
years, consumers were told the internet was an `information 
superhighway' giving the false impression that all internet 
traffic is moving the same direction on an equal plane at the 
same time. We even use the word `traffic' to describe the 
movement of information and data across the internet--but it is 
actually a lot more complicated than that.
    The internet isn't a highway, where there can be so-called 
fast and slow lanes. The internet is actually a network of 
networks, with many layers managing the data that flows across 
it. There are application layers that establish the connection 
and encrypt data, there is the transport layer that prepares 
data for transport, and there is the network layer, which 
identifies the packet routing sequence.
    Within these layers, there are many different players aside 
from your ISP involved in managing traffic. Devices, software, 
Wi-Fi routers, and content delivery networks, or CDNs, can all 
load, manage, and relay traffic in different ways.
    We will hear from our witnesses today a more in-depth 
explanation of how the internet actually works--and the role 
prioritization plays in operating networks.
    But in a basic sense, prioritization has nothing to do with 
traffic speed, rather it is putting certain bits over others to 
ensure that all packets arrive to their destination on time.
    A complete ban on prioritization would not permit this and 
would not allow some services and applications to operate 
smoothly. In other words, prioritization currently exists 
across the internet architecture and is necessary to ensure the 
internet functions properly.
    It is also worth nothing, that while we've heard a lot from 
our friends at the edge providers about how prioritization is 
bad for business, those operating at the edge pay to prioritize 
traffic every day through the use of various interconnection 
agreements, including CDNs.
    In order to facilitate high demand applications like video 
streaming, many of the most popular content providers don't 
send data over the public internet, rather they directly 
interconnect with a CDN, allowing the edge provider's traffic 
to be prioritized to provide a better user experience. It is 
estimated that by 2021, CDNs will carry 71% of global internet 
traffic.
    Today is not the first time this committee has considered 
how to best legislate the issue of prioritization. I released 
draft legislation last Congress that would establish rules of 
the road to ensure the internet remains open to all. Similarly, 
Chairman Blackburn introduced her Open Internet Preservation 
Act at the end of last year.
    Rather than waste our efforts on partisan legislation like 
the CRA, we hope our colleagues on both sides will join our 
effort to develop legislation that will provide lasting 
solutions to some of the outstanding questions regarding 
internet traffic management.
    What exactly do we mean and what harms are we trying to 
address in restricting internet prioritization, whether paid or 
unpaid, whether the content is affiliated or not?
    I completely agree with Chairman Blackburn that in order to 
move forward toward a long overdue legislative solution, we 
need to be able to have this conversation, in a nuanced, in-
depth manner, and figure out the common ground.
    I look forward to hearing from all of our witnesses.

    Mr. Walden. With that, Madam Chair, I yield back the 
balance of my time.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone, you're recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    The internet is a powerful engine of economic growth and a 
potent platform for free speech. With a working broadband 
connection, anyone can work from home, sell their own products 
online, and connect with companies a world away.
    And in the past few years, we have seen how the internet 
can help everyday people launch a worldwide political movement.
    But the power of the internet is rooted in the principles 
of net neutrality. These principles are simple and well 
understood. Broadband companies cannot pick internet winners 
and losers by blocking or slowing down content or charging 
extra for fast lanes.
    It's a question of fairness, and there are no loopholes. 
Until the Trump administration took over the FCC, even the 
broadband providers themselves supported these principles, 
including a flat ban on fast lanes.
    The largest providers told us time and again that they 
agreed that paid prioritization should be prohibited. They said 
that they had no intention of charging anyone extra for faster 
speeds.
    But recently those voices have gone silent, and that 
silence presents a real threat to small businesses and speech 
online. Where there was once agreement on a prohibition on fast 
lanes, some now want to add loopholes to net neutrality. The 
reasoning is convoluted and confusing. They argue that somehow 
allowing broadband providers to charge small companies extra 
for internet fast lanes is good for small business. But that 
makes no sense, and no one's buying it.
    Small businesses oppose having to pay extra for fast lanes. 
So do telemedicine companies, disabled veterans groups, self-
driving-car companies, churches, nonprofit, and the list goes 
on.
    Net neutrality advocates have spoken loud and clear. We 
want everyone to have a faster internet, not just the chosen 
few who can afford to pay extra, and that's why Democrats on 
this committee introduced the LIFT America Act to bring faster 
broadband to everyone.
    The only ones who want broadband providers to charge money 
for fast lanes are the broadband providers, and despite these 
latest attempts to muddy the water and create confusion, 
banning paid prioritization is not a new issue.
    The FCC solved this problem when it passed net neutrality 
in 2015. At that time, the FCC correctly banned these fast 
lanes with the exception of certain specialized services like 
health care.
    The FCC got it right in 2015 and the Trump FCC got it wrong 
when it killed net neutrality last year, and that's why I 
support the legislation introduced by Ranking Member Doyle that 
would restore the well-crafted and balanced 2015 protections, 
and I encourage any of my colleagues who support real net 
neutrality to sign on to Ranking Member Doyle's CRA as well.
    The CRA is the best way to put net neutrality back in place 
and support small businesses, and I'd like to yield the 
remaining time to Ms. Eshoo.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    The internet is a powerful engine of economic growth and a 
potent platform for free speech. With a working broadband 
connection, anyone can work from home, sell their own products 
online, and connect with companies a world away. And in the 
past few years, we have seen how the internet can help everyday 
people launch a worldwide political movement.
    But the power of the internet is rooted in the principles 
of net neutrality. These principles are simple and well 
understood: broadband companies cannot pick internet winners 
and losers by blocking, or slowing down content or charging 
extra for fast lanes. It's a question of fairness, and there 
are no loopholes.
    Until the Trump administration took over the FCC, even the 
broadband providers themselves supported these principles, 
including a flat ban on fast lanes. The largest providers told 
us time and again that they agreed that paid prioritization 
should be prohibited. They said that they had no intention of 
charging anyone extra for faster speeds. But recently, those 
voices have gone silent, and that silence presents a real 
threat to small businesses and speech online.
    Where there was once agreement on a prohibition on fast 
lanes, some now want to add loopholes to net neutrality. The 
reasoning is convoluted and confusing-they argue that somehow 
allowing broadband providers to charge small companies extra 
for internet fast lanes is good for small business.
    This makes no sense and no one is buying it.
    Small businesses oppose having to pay extra for fast lanes. 
So do telemedicine companies, disabled veterans groups, self-
driving car companies, churches, non-profits, and the list goes 
on.
    Net neutrality advocates have spoken loud and clear: we 
want everyone to have a faster internet, not just the chosen 
few who can afford to pay extra. That's why Democrats on this 
committee introduced the LIFT America Act to bring faster 
broadband to everyone.
    The only ones who want broadband providers to charge more 
for fast lanes are the broadband providers.
    Despite these latest attempts to muddy the water and create 
confusion, banning paid prioritization is not a new issue.
    The FCC solved this problem when it passed net neutrality 
in 2015. At that time, the FCC correctly banned these fast 
lanes, with the exception of certain specialized services like 
healthcare. The FCC got it right in 2015 and the Trump FCC got 
it wrong when it killed net neutrality last year.
    That's why I support the legislation introduced by Ranking 
Member Doyle that would restore the well-crafted and balanced 
2015 protections. And I encourage any of my colleagues who 
support real net neutrality to sign on to Ranking Member 
Doyle's CRA as well. This CRA is the best way to put net 
neutrality back in place and support small businesses.
    Thank you.

    Ms. Eshoo. I thank our ranking member, and good morning, 
everyone. And to the witnesses: Welcome, and thank you for 
being here.
    We are now a decade into the fight to protect net 
neutrality, and throughout that time there have been many 
arguments from those who oppose it: that it will kill jobs, it 
would harm investment, or hurt the free press.
    All of these have been refuted each in turn. This is 
actually, I think, a very simple issue. It's about fairness and 
equal access to an essential resource, the internet.
    The 2015 Open Internet Order created the strongest, most 
reliable rules to protect that level playing field for 
innovation. The courts and the FCC both acknowledged that net 
neutrality was critical to the virtuous cycle that has enabled 
the internet to act as a tool of growth, of innovation, of 
investment, and of free expression.
    That same FCC found that paid prioritization is inherently 
harmful to that fruitful cycle that fuels education, jobs, and 
our economy.
    Yet now we have the same companies who proclaim in full-
page newspaper ads that they support net neutrality, but they 
are pushing for an exception for prioritization.
    This is about money. This is about money. We should just 
all acknowledge that and have a debate about it. But it's all 
about money.
    We may be a decade down the road, but it's about the same 
thing that it always has been about, and that is who controls 
the onramps to the internet, being able to pick winners or 
losers, and that's based on pay to play. It is about money.
    I don't blame companies for wanting to make money. That's 
what they are in the business to do. But we have an obligation 
to the public, and I think that's what this debate is about.
    So I look forward to hearing from the witnesses, and I 
think everyone knows exactly where I stand on this.
    [Laughter.]
    Ms. Eshoo. I yield back. Thank you.
    Mrs. Blackburn. The gentlelady yields back. Mr. Pallone 
yields back, and this concludes our Member opening statements.
    I will remind the committee that each Member's opening 
statement will be made a part of the permanent record for the 
committee.
    We thank our witnesses for being here today, and you all 
are going to have the opportunity to give your opening 
statements, followed by a round of questions from our Members.
    Our panel today: Mr. Richard Bennett, founder of High Tech 
Forum; Mr. Peter ``Ree-sa-vay''--am I saying that properly?
    Mr. Rysavy. ``Ri-sah-vy.''
    Mrs. Blackburn. Rysavy, president of Rysavy Research; Mr. 
Paul Schroeder, director of public policy and strategic 
alliances at Aira Tech Corporation; and Matt Wood, policy 
director at Free Press.
    We appreciate each of you for being here today and for 
providing your testimony.
    Mr. Bennett, we begin with you. Please, each one of you as 
you speak, turn your microphones on. And, Mr. Bennett, you are 
recognized for 5 minutes for an opening statement.

STATEMENTS OF RICHARD BENNETT, FOUNDER, HIGH TECH FORUM; PETER 
    RYSAVY, PRESIDENT, RYSAVY RESEARCH; PAUL W. SCHROEDER, 
  DIRECTOR, PUBLIC POLICY AND STRATEGIC ALLIANCES, AIRA TECH 
 CORPORATION; MATTHEW F. WOOD, POLICY DIRECTOR, FREE PRESS AND 
                   THE FREE PRESS ACTION FUND

                  STATEMENT OF RICHARD BENNETT

    Mr. Bennett. Good morning, Chairman Blackburn, and hello to 
Chairman Walden, Ranking Member Doyle, and Ranking Member 
Pallone, and members of the committee, especially Ms. Eshoo, 
whose district I used to live in and who gave me a really hard 
time the first time I testified before this committee, but I 
probably deserved it.
    Prioritization has been part of the internet's design from 
the beginning in that there is a type of service field in the 
internet protocol header, and it's been refined through 
integrated services, a standard design in the 1990s, then 
differentiated services, so there is not by itself anything 
controversial about prioritization.
    And I think it's fair to say that, while it was 
controversial for a time, it's come to be recognized there is a 
consensus sort of support that, done correctly, prioritization 
is beneficial to applications.
    So we have reached this consensus, I think, after about 15 
years of debate around what we call net neutrality now, that 
it's legitimate for ISPs, CDNs, transit networks, and purpose-
built networks like WebEx to accelerate time-sensitive traffic.
    If you go back to the original paper that Chairman Wheeler 
wrote on net neutrality, he points out that the internet is 
inherently biased against real-time applications as a class and 
biased in favor of content applications, and I think if we are 
not careful about how we treat paid prioritization we can make 
that bias worse, and that's something we should try to avoid.
    I think we also--going back to the consensus question--we 
also believe that competition is a good thing. We want tech 
policies that increase that.
    So prioritization and the related technologies such as 
resource reservation, traffic shaping, and dynamic path 
selection have not only become commonplace, but I think they 
are widely regarded as essential to certainly the real-time 
applications part of the internet.
    And this is good, because no matter how much capacity 
networks have, we can also always make their operation more 
efficient if we apply optimization techniques. There are 
certain problems that we solve without optimization that you 
can't really build your way out of simply by throwing more 
capacity at the problem.
    It's like trying to solve, you know, throwing money at 
problems that you don't really understand.
    And I think we appreciate that prioritization mechanisms 
such as the IEEE 802.11(e) standard that I helped design are 
beneficial to real-time applications such as voice in the same 
way that LTE bearers are.
    The fact that one is provided free on a closed enterprise 
network and the other is sold as part of a bundle that includes 
carrier grade voice I think doesn't really impact on their 
utility. These are useful things. We found that, by 
prioritizing voice and Wi-Fi, we get four times as many voice 
calls through a Wi-Fi network.
    But it's hard to explain the continual increases in 
broadband speed we have seen in the U.S. over the last 10 
years--speed improves 35 percent per year--without giving some 
credit to the expectation of profit.
    The fact that web speeds have stagnated over this same 
period, even declining in 2016, suggests something is wrong 
with the web's financial model, and I think you, the committee, 
explored that last week.
    But leaving the consumer broadband market questions aside, 
paid prioritization internet optimization is very important to 
enterprises that have to connect, say, branch offices to 
headquarters.
    The traditional way to do that was to lease--and in some 
cases still is widely done--people lease business data services 
lines like a T1 for $300 a month, and it only gives you 1.5 
megabits per second.
    But with prioritization, you could actually--with the 
proper management, you could actually use a public common 
internet connection to connect the branch office to the 
headquarters.
    And so now you're getting 50 to 250 megabits per second for 
less than $100 a month. But this only works--you can only have 
that cost savings if someone is prioritizing the traffic on 
that pipe.
    So let's bear in mind that, while there are fees for these 
things, the alternatives can also be quite costly.
    So it's important, I think, to recognize the internet is no 
longer just a research network. The internet is the network. It 
has replaced all the other--I mean, not quite completely, but 
in the next few years, all the other networks are going to be 
subsumed by the internet.
    So we can't apply the sort of, oh, like, research network 
standards to the internet. We have to recognize that the 
fundamental requirement is that it serves all the needs of all 
the used cases of all the people who connect to it.
    And I think whatever it takes to do that is fine, you know, 
given the proper oversight.
    [The prepared statement of Mr. Bennett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.

                   STATEMENT OF PETER RYSAVY

    Mr. Rysavy. Chairman Blackburn, Ranking Member Doyle, and 
other distinguished members of the subcommittee, thank you for 
the opportunity to testify at this important hearing.
    I am president of Rysavy Research, an analyst in the 
wireless industry with more than 25 years of experience. When I 
started, the hot new wireless technology was 1G.
    I am an expert in wireless technology. I've worked with 
many dozens of firms and have published more than 175 reports 
and articles. My testimony is on 5G.
    5G will start to be deployed as early as this year--end of 
this year--and will become the dominant wireless technology 
through the 2020s. It is being designed and developed by 
organizations, individuals from all over the world, and will 
employ sophisticated mechanisms to handle different kinds of 
traffic flows.
    This is critical because 5G is being designed to address a 
much wider range of use cases than prior generations of 
technology.
    Many of the applications envisioned for 5G are of a control 
nature, and that means they need minimal delay and high 
reliability.
    These types of applications, whether it's controlling 
drones in real time or robots or sending emergency messages to 
autonomous vehicles, will depend on traffic prioritization.
    5G's reliance on traffic prioritization should not be 
viewed as problematic for internet traffic that will not be 
prioritized. Traffic differentiation and prioritization is not 
a zero sum game.
    You can prioritize certain traffic flows without adversely 
affecting other users' applications. The goal in managing 
network traffic is to maximize the quality of experience across 
the entire subscriber base.
    5G needs QoS management not only for traffic prioritization 
to support mission critical applications but also enable a 
fundamental architectural component called network slicing.
    Again, 5G is being designed and developed for cellular 
operators to deploy on a global basis. Network slicing, 
implemented through virtualization, will allow an operator to 
provide different services with different performance 
characteristics customized for the specific use cases involved, 
such as those needing low latency enhanced reliability.
    Even with new spectrum and expected peak throughputs that 
will exceed a gigabit per second, 5G networks will still have 
to manage latency, reliability, massive numbers of connections, 
and a mix of stationary and mobile users.
    Capacity alone is not the solution. The United States has 
assumed global leadership in 4G. It enjoys deep LTE 4G 
penetration, leading smartphone platforms and the vibrant 
application ecosystem. But globally, countries and companies 
are investing in and concentrating on what will come next with 
5G.
    Constraining 5G with rules that restrict traffic management 
necessary for the traffic flows anticipated with 5G 
applications could threaten U.S. leadership in mobile 
technology and deployment.
    Thank you.
    [The prepared statement of Mr. Rysavy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Schroeder, you are recognized for 5 minutes, and I will 
give you a warning at 30 seconds. How's that?

                 STATEMENT OF PAUL W. SCHROEDER

    Mr. Schroeder. Thank you very much. Good morning. I think 
the microphone is on.
    Thank you, Chairman Blackburn, members of the subcommittee. 
Very pleased to be with you this morning. My name is Paul 
Schroeder, and I am here on behalf of Aira, a San Diego-based 
technology company.
    Our groundbreaking service provides instant access to 
visual information for people who are blind or visually 
impaired. As such, our service relies on the transmission of 
streaming video from the network edge through mobile up to the 
internet without interruption at high speeds to ensure ultra-
low latency connection between the blind individual and the 
remotely located sighted assistant who is providing information 
based on the video feed.
    We leverage mobile communications as well as innovative 
technologies such as the smart glasses that I am wearing, and 
yes, there is a camera in the middle of these glasses that is 
connected to an agent as we speak. We also use GPS and other 
sensors, augmented reality, and are incorporating machine 
learning.
    Besides the technology, Aira's success really depends on 
our human agents. They are highly trained, they are paid, they 
are held to a confidentiality requirement, and they do undergo 
background checks before they serve as an agent.
    Our customers--we call them explorers--pay for access to a 
fixed number of minutes per month. We are, though, working with 
agencies such as the Department of Veterans Affairs to ensure 
that blind veterans have access to this critical service.
    I also want to note that Congressman Peters and Congressman 
Rutherford have been very helpful in leading a bipartisan 
effort to ensure that the VA is paying attention to these new 
technologies.
    This week, Aira has designated the congressional office 
buildings as free Aira zones. This was a choice we made because 
there is a large group of individuals who are blind visiting 
this week, and we know that this will help them navigate the 
halls of Congress more effectively.
    We encourage others to do this, and I do want to note for 
Chairman Blackburn, your home State airport of Memphis was the 
first one to join the Aira Airport Network, paying for the 
minutes of Aira users at Memphis airport in order to get around 
the airports more effectively.
    Yesterday, two of our Aira explorers ran the Boston 
Marathon using Aira. Now, most of us, blind or sighted, 
probably aren't going to run a marathon. But the test of a low-
latency available network was put to the test at the marathon, 
and many of us will have opportunities to test that in other 
environments, for example, hustling through an airport trying 
to find the gate for our airplane, checking out bus signs in a 
crowded bus garage to figure out the one that we need, quickly 
looking at a chart or slide in a meeting or a classroom, or 
maybe a congressional hearing, in order to get the information 
from that slide as a person who's blind, putting information 
into these kiosks that are popping up everywhere in order to 
order or confirm a reservation, and, of course, reading a 
medication label to ensure that we are actually taking the 
right medication.
    For those of us who are blind or visually impaired using 
Aira, we need instant access to this information. We need a 
network that is reliable and a network that has low latency, 
because our video is able to stream upward from the mobile 
edge.
    We are particularly pleased to note our partner AT&T has 
offered dynamic traffic management to Aira to ensure that our 
users have the low-latency network and reliable connectivity 
that they need and our agents need as well.
    I am pleased to say this morning I am joined by an agent--
Amy, are you there?
    Agent. I am. Good morning, Paul.
    Mr. Schroeder. Oh, I left the speaker by the phone. Do you 
want to do a very quick description of the room, please?
    Agent. Absolutely. I see three rows of a desk and that have 
white wood on the bottom of them and then a darker mahogany on 
the top of the desk and they are separated by an aisle in the 
middle, and the very back of the room has a single panel of 
speakers. I see the chairwoman is in the very middle of the 
room. A gentleman to her left is waving at me.
    [Laughter.]
    Agent. American flags that are flanking the center----
    Mrs. Blackburn. Thirty seconds.
    Agent [continuing]. Three windows directly across----
    Mr. Schroeder. I am going to have you hold up, and we'll 
come back to you if there's a question for the agent.
    We are investing in artificial intelligence as well so that 
we can bring automation to our service, and we are, of course, 
looking forward to the emergence of 5G, which will help our 
low-latency network and service be even stronger.
    Finally, I just want to say we encourage policymakers to 
support policies and programs that will promote and expand 
reliable access to visual information such as what Aira is 
providing as a right to those of us who are blind or visually 
impaired.
    Thank you.
    [The prepared statement of Mr. Schroeder follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Wood, 5 minutes.

                  STATEMENT OF MATTHEW F. WOOD

    Mr. Wood. Chairman Blackburn and Ranking Member Doyle, and 
members of the subcommittee, thank you for having me here today 
to testify.
    Free Press is a nonpartisan nonprofit with 1.4 million 
members, and we were founded 15 years ago to elevate people's 
voices in policy decisions that shape our media.
    Today, we believe that achieving racial justice and social 
justice require equitable access to technology and information. 
That's why we work on net neutrality.
    We supported the strong rules recently and wrongly repealed 
by the FCC, and we support Congressman Doyle's resolution to 
restore them, and we are not alone.
    Hundreds of members have cosponsored that resolution in the 
House and Senate. Thousands of businesses and organizations and 
State and local officials support it, too.
    Millions of people have made their voices heard, first at 
the FCC and then in these halls, opposing that repeal and 
calling on you to pass the CRA.
    That's not surprising, because, as Mr. Doyle noted, poll 
after poll shows the net neutrality rules enjoy tremendous 
popular support across party lines.
    One poll last summer showed that 72 percent of Republicans 
supported the 2015 rules. Another taken before the FCC's 
December vote found that 83 percent of all respondents oppose 
that repeal.
    Free Press supports restoring the entire 2015 order because 
we need more than three bright lines to preserve the open 
internet. We need FCC authority to prevent new forms of 
discrimination and also to address digital divides, protect 
privacy, and promote competition.
    Yet some people claim that paid prioritization bans are 
harmful and they say that ISPs should be able to charge new 
kinds of fees and that internet users and businesses would 
benefit from such new charges.
    They also say this would help with last-mile congestion 
without explaining its scope or accounting for the ways the 
networks already deal with that.
    As a general matter, prioritizing rather than building 
capacity to solve any last-mile congestion over a sustained 
period would let ISPs profit from artificial scarcity.
    It would let them charge more to get through the bottleneck 
rather than building a bigger path. So paid prioritization is 
not just a solution in search of a problem, it's a toll booth 
in search of a traffic jam.
    ISPs' own data shows that under Title II, both broadband 
investment and deployment speeds increased markedly in rural 
and urban areas alike.
    Despite that evidence, some still insist that strong rules 
made ISPs invest too little. Now, funnily enough, we are told 
that the rules may make ISPs invest too much by requiring them 
to build both excess capacity instead of prioritizing their way 
out of congestion.
    Whatever the investment incentives of the paid 
prioritization ban, discarding this rule would cause a radical 
change to the internet.
    That ban prohibited ISPs favoring traffic only in exchange 
for payment from a third party or to benefit an ISP's 
affiliates such as video or voice offers.
    In other words, it did not ban the kinds of user-directed 
and application-driven traffic management techniques praised by 
others here today.
    Those kinds of practices leave ISPs' customers in control 
when it comes to choosing how to use those connections, and 
those customers already can and do choose to buy faster speed 
tiers when they so desire.
    They could even buy what's called a quality of service tier 
to use on applications of their choosing and at times of their 
own choosing.
    Longstanding network protocols also can and do make these 
kinds of choices neutrally. ISPs don't need to inspect our 
internet traffic as they transmit it or to second guess how to 
treat it.
    The paid priority rule banned none of these network 
management techniques. It applied only if the ISP tried to make 
a content provider pay extra just to reach broadband customers 
or just to cut in line ahead of other traffic.
    People already pay for their connections. The websites and 
apps they visit should not suddenly be asked to do so too. So 
if I visit marshablackburn.com or mikedoyleforcongress.com on 
my home connection, those websites don't have to pay my ISP to 
reach me.
    Let me be clear. I am not here to defend big edge providers 
from such payments. I represent internet users. But letting 
gatekeeper ISPs impose new tolls would distort the choices 
users have and ISPs undoubtedly would get together with those 
largest edge providers to set the terms and prices for any such 
advantages.
    It would be inefficient for every edge provider to have to 
strike such deals with every ISP in the country, and signing up 
for such deals means they'd be double charged for data that ISP 
subscribers already paid to receive.
    Academics can speculate that in a different kind of access 
market such new fees might reduce subscriber costs. They still 
do not explain why ISPs facing so little competition would have 
any incentive to lower their retail prices.
    So when ISP executives talk about paid prioritization, they 
don't describe it as a way to reduce revenues or to replace the 
source for those revenues. They talk about it as a chance to 
increase their revenues.
    That's why the notion that new ISP fees might benefit 
internet users and reduce their prices brings to mind a joke 
I've heard on several occasions. But with all due respect to 
the originator of that joke, I think that the most terrifying 
words in the language may be, ``I am from the cable company. I 
am here to save you money.''
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Wood follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    This concludes the testimony from our witnesses. We thank 
you for that, and we will now move to our questions and 
answers. I will begin and recognize myself for 5 minutes.
    Mr. Bennett, I want to come to you first. I want to discuss 
a tweet from Matthew Prince, the CEO of CloudFlare, from last 
November.
    This exchange occurred on the day the FCC made its 
Restoring Internet Freedom order available to the public. 
Someone tweeted a wish that a tech billionaire would buy out 
the local ISP where Chairman Pai lives and throttle his 
internet access in retaliation for reversing the previous 
Commission's order.
    Matthew Prince tweeted in reply, ``I could do this in a 
different but equally effective way.'' He went on to say he had 
sent a note to his general counsel to see if CloudFlare could 
throttle Pai's access without breaking any laws.
    This tweet certainly raises a number of questions, and in 
fact it gave us the idea for this hearing. Was Matthew Prince 
right, and if so, how could he have done this?
    Mr. Bennett. Thank you for the question, Chairman 
Blackburn.
    I remember that exchange. I got involved in it myself, 
actually. And I think what it illustrates is how the 
construction of the internet, the structure of the 
architecture, has changed since the sort of founding days of 
even really since Tim Wu came up with the idea for net 
neutrality.
    So instead of it being a system that consists of users 
attached, you know, with their computers and mobile devices to 
an infrastructure that's provided only by internet service 
providers, the infrastructure is actually--there's a lot going 
on in the infrastructure today that didn't used to be there in 
the very beginning, and content delivery networks have been 
mentioned several times, and that's one example. Technically, 
content delivery networks are edge services, but it turns out 
that all parts of the edge are not equal. So if you put a 
content delivery network on a portion of the edge close to the 
end user, then you, by that very act of simply locating the 
data there, you have moved the data to the head of a line that 
other suppliers of information that could be, say, on an 
average of half a nation away would have to join at the back--
you know, CDNs put you at the front.
    So CloudFlare has a number of--they're actually quite 
innovative products the company has. So it's sort of a--it's 
hard to--I am not completely a fan, but some of the things 
they're doing I think are very beneficial.
    I think their primary product is the DDoS protection 
mechanism so that, you know, sites can be subject to denial-of-
service attacks if they are on the wrong side of popular 
opinion on certain topics, and CloudFlare came up with a way to 
protect sites that are being hammered with denial-of-service 
attacks by simply putting a really high bandwidth kind of 
firewall in front of the site that could absorb the denial-of-
service attack and allow the website to continue to function.
    Of course, that doesn't always work the way it's planned. I 
used to be a visiting fellow at the American Enterprise 
Institute, and we published a blog called Tech Policy Daily, 
and we used CloudFlare's free service to protect the blog from 
denial-of-service attacks. AEI's the kind of organization 
that's sort of a target for a lot of that sort of antisocial 
behavior.
    But I ran into a situation once where I was unable to 
access a post that I would written for the blog from my home in 
Colorado due to a misconfiguration of the CloudFlare.
    The CloudFlare had changed some IP addresses. They hadn't 
told the people at AEI, and so the AEI server, which was not 
actually owned or controlled by CloudFlare--it was just behind 
the CloudFlare firewall--was unreachable to me. But people in 
DC could see it just fine. So it's, like, they were saying, 
``Why is this a problem?''
    Mrs. Blackburn. Let me interject and ask you one more 
question on this. You talked about the CDNs, and as we look at 
an individual user's access to certain content, who else within 
this ecosystem would have the opportunity to control that 
access or to control the speed of the individual's access?
    Mr. Bennett. Well, the CDNs dump so much traffic on the 
internet I think, as it's covered in the background memo for 
the hearing, that they're actually in a position to affect the 
rate at which non-CDN users can get their jobs done.
    Mrs. Blackburn. OK. My time has expired.
    Mr. Doyle.
    Mr. Doyle. Thank you.
    A number of witnesses mentioned that 5G will precipitate 
the need for greater prioritization. If we dramatically 
increase the capacity of the network service, do we also need 
to dramatically increase our ability to manage the scarcity of 
it?
    Mr. Wood. I think not. Congestion doesn't solve every 
problem, I heard other witnesses say, but it can solve a lot of 
them, and as I noted in my testimony, certain kinds of 
prioritization actually do happen already. The question really 
is who's being made to pay for that.
    Mr. Doyle. You know, a number of witnesses also said in 
their testimony, they talked about the benefits of ISPs 
prioritizing certain kinds of traffic over others--for 
instance, live video, telemedicine, and online games.
    But what happens when you take the choice away from 
consumers of which packets get to them first and ISPs are 
allowed to decide which applications and application providers 
will have optimized access to consumers and which ones won't?
    I mean, to me it seems like the ISPs get to pick who wins 
and who loses. What do you think?
    Mr. Wood. Thank you, Congressman.
    Yes, we agree. We think retaining that user choice and the 
rights that users have is very important. And so you're right 
that certain kinds of traffic might have different network 
needs at different times.
    It should really be up to the user to choose not only which 
kinds of traffic they might wish to pay for or prioritize but 
also the source of that traffic. So will all video applications 
be treated the same way? That's a very tough question to answer 
when we are leaving that all within the ISPs' control.
    Mr. Doyle. You know, let's talk a little bit about 
competition. If ISPs were allowed to implement paid 
prioritization for services such as telemedicine or other 
services, do you think that would increase or decrease the 
number of competitive offerings in that space?
    Essentially, do you think small, rural health practices or 
small startups would want to compete against large health 
systems and the ISPs themselves or other large institutional 
players?
    Mr. Wood. Yes, Congressman. Thank you.
    I think it would decrease the amount of competitors further 
upstream, if you will. There's some notion that paid priority 
could be used to level the playing field, I suppose, and let 
the small businesses compete with the large businesses.
    I can't see how that would work. I think that, if there 
were paid prioritization allowed, then naturally the companies 
with the deepest pockets and the providers with the biggest 
bank accounts would pay for that prioritization.
    It wouldn't be used to level the playing field. It would 
just be used to tilt it even further.
    Mr. Doyle. You know, a number of witnesses here today have 
alleged that the Open Internet Order severely restricted the 
types of network management an ISP could engage in.
    They also alleged that certain types of specialized service 
offerings such as telemedicine work prohibit it. Further, they 
claim that prioritization is necessary to ensure the quality of 
certain services, services, it seems to me, that might be best 
served using business data services, which I see are claimed to 
be too expensive.
    What do you make of that?
    Mr. Wood. Well, there's a lot there. I do think that the 
Open Internet Order of 2015 did allow for reasonable network 
management. It was the term of art used for several of the 
rules. So even for blocking or for throttling, there were 
network management exceptions.
    For a prioritization, there was no such exception, but, of 
course, as I noted this morning, the ban only applied to third-
party payments or prioritization done to benefit an affiliate 
of the internet service provider.
    So all kinds of applications could receive network 
management. You mentioned specialized services and other kinds 
of dedicated capacity. Those were fully allowed by the 2015 
order, and, again, even when there is a use case for 
prioritization on the open internet without going to a 
specialized service or dedicated capacity, there are protocols 
and methods for doing that today.
    They just simply don't require the edge provider to pay on 
top of what the broadband user is already paying for their 
service.
    Mr. Doyle. Right.
    Mr. Wood, the ban on paid prioritization, or pay to play, 
that was a fundamental part of net neutrality, and throughout 
the proceeding to eliminate neutrality protections, Chairman 
Pai repeatedly said that the 2015 net neutrality order was a 
departure from the past.
    Yet, as far back as the 1970s the Commission had identified 
the potential harmful effects that could result when just a 
handful of gatekeepers could control consumers' access to the 
internet.
    Has the internet always been open and free?
    Mr. Wood. We certainly think so. In the old days, you might 
call it, broadband providers were Title II providers. Your 
dial-up service worked over a phone line, and that phone 
company was subject to nondiscrimination rules.
    So, although the legal ground for net neutrality has 
shifted somewhat over the last decade as different 
administrations have tried to do it in different ways, the 
protections have always been there, and we think the 2015 
version did the best job of restoring the protections we've 
always had.
    Mr. Doyle. So why were guardrails needed when the FCC 
opened its proceeding that resulted in the recently overturned 
net neutrality protection?
    Mr. Wood. I am sorry. You said why were guardrails needed?
    Mr. Doyle. Yes.
    Mr. Wood. I am not sure I completely understand the 
question. But we do think that keeping the protections we've 
always had was the right move. I am not sure what guardrails 
you're referring to in the new proceeding.
    Mr. Doyle. No, in the recently overturned proceeding.
    Mr. Wood. Yes. Well, I mean, again, these are fundamental 
rights that we think deserve protection and always have had it 
in some form or another, and so that's why we are looking to 
restore it now.
    Mr. Doyle. I see my time has expired.
    Thank you, Madam Chair.
    Mrs. Blackburn. Gentleman yields back.
    Mr. Shimkus, you're recognized for 5 minutes.
    Mr. Shimkus. Thank you, Madam Chairman.
    Great hearing, interesting issue, contentious views. I want 
to start with Mr. Schroeder, and I want to, one, thank you for 
being here, and secondly, I was watching your hands. Were you 
reading Braille or how was--how did you read to us your 
testimony? What was going on down there?
    Mr. Schroeder. Yes, I was. I am reading off of a small 
Braille device. It's essentially a Braille computer that has my 
summarized testimony.
    Mr. Shimkus. Great. And where is the lady who's assisting 
you through your glasses and the video? Where is actually she 
physically located?
    Mr. Schroeder. Amy is in San Diego currently.
    Mr. Shimkus. Great. Great. So----
    Mr. Schroeder. I am taking the headphone out so she can 
talk if you have a question for her.
    Mr. Shimkus. I hope that you have a good working 
environment, Amy.
    [Laughter.]
    Mr. Schroeder. You know, one of the things we found when 
our agents--and Amy was our lead agent and the person that 
developed a lot of the training that the agents now go 
through--she is a company employee in San Diego.
    But our agents love Aira, as you can imagine. They are 
paid, as I mentioned. It's largely home-based employment, and 
as long as they've got a good internet connection, they are 
able to provide the support for Aira users, and there's a lot 
of satisfaction, I know, among our agents and the kind of work 
that they do from the tedious work of getting somebody through 
an airport or the very exciting work of actually being able to 
work with somebody who's touring Paris.
    Mr. Shimkus. Yes. In your testimony then--you can put her--
you can put her down.
    [Laughter.]
    Mr. Shimkus. I don't think I've got questions for----
    Mr. Schroeder. I'm putting you down, Amy.
    Mr. Shimkus. Yes. In your testimony you talked about your 
relationship with AT&T and then the Aira accessibility of 
Government buildings this week or while there are numerous 
people who have impaired vision that's on the Hill.
    And so it's tied into this hearing. Why do you think you 
were invited here to testify?
    Mr. Schroeder. I think Aira has an interesting case to 
make. We've been clear from the beginning we don't really--as 
you know if you looked at our company references, we don't 
really have--we haven't stated a position on this particular 
topic.
    But Aira has a very interesting case to make regarding 
prioritization, and as I noted it's an upstream priority. So 
typically when we talk about this issue of prioritized content 
and access to content, it's usually ensuring that users have 
access to content, and the discussion tends to revolve around 
making sure that the content goes downstream in an orderly 
fashion.
    We are the other side of that case. We need to send video 
upstream and, as you know, often upload speeds don't match 
download speeds.
    And so our critical case to make is that our service can't 
work if we don't have priority low-latency access. I think we 
talk about 80 milliseconds is what we try to achieve, or 
better, of latency because, if somebody is out and about 
moving, they really do need that instant video feedback that 
the agent can then provide--that that video in the opposite 
direction of what we usually talk about in these networking----
    Mr. Shimkus. Yes. It's excellent testimony, and you can 
just see someone trying to cross a busy street and then being--
feedback is delayed. That's a dangerous proposition to be had.
    I just think it really does speak to--it's not as simple as 
people like to portray this debate.
    And I want to go to Mr.--``Ri-say-vy''?
    Mr. Rysavy. ``Ri-sah-vy.''
    Mr. Shimkus. Rysavy. You say it's not a zero sum game. 
Explain that. Because that's the whole debate. You know, net 
neutrality--there's winners and losers--Mr. Wood articulates 
that very--but you say it's not. You can't put it in that--in 
that----
    Mr. Rysavy. It is absolutely not a zero sum game.
    Mr. Shimkus. And explain that.
    Mr. Rysavy. The reason is that different applications have 
different requirements. If I am trying to send a short message 
to an autonomous vehicle that there's a pedestrian in the road 
around the corner that the car can't see, that traffic does not 
have to adversely affect a video streaming application that 
already has a buffer and already has tolerance for delay in how 
it receives its packets.
    Mr. Shimkus. So, and then someone else mentioned it's 
really not a highway. It's a network of networks.
    Mr. Rysavy. Yes.
    Mr. Shimkus. And so there's other--and Mr. Bennett, in your 
testimony you talk about how you can manipulate a portion of 
the network to actually slow up the process where the, quote, 
unquote, ``pie'' may get the original one.
    Great hearing, Madam Chairman. I wish I had more time, but 
I don't, and I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Let's see. So Ms. Eshoo, 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    Again, thank you to the witnesses. I have to say that from 
the first three, I haven't heard any of you just clearly 
address why you think paid prioritization is a good idea.
    We just heard the exchange with Mr. Shimkus and the witness 
about different uses of the internet, but you didn't bring up 
why one case or another should have paid prioritization.
    So you know where I am, but I think that your job is to try 
to dissuade me or bring new facts to the table, and, most 
frankly, I didn't hear them.
    I think that paid prioritization really needs to be 
examined for exactly what it is. There are many uses on the 
internet. But, you know, I think that we are going to--here at 
the committee we have many Members, including myself, that are 
fighting very hard for rural areas in our country to receive 
broadband. Some are underserved. Others are not served as they 
should be.
    Put paid prioritization on top of that. How fair is that to 
those people? You know, the idea is to move it faster, quicker, 
fairer, expand it so that there's more information to the many 
in a democracy.
    So, to Mr. Wood, can you explain the distinction between--
because this term is being thrown around--specialized services 
and paid prioritization?
    And also, you refer to your, in your testimony, to new 
forms of discrimination, and I think that that is--you know, 
that could crop up, and if you can expand on that a little I 
would appreciate it.
    Mr. Wood. Sure. Thank you, Congresswoman.
    Specialized services is a term that the FCC has used over 
the last several years. You might think of it as dedicated 
access. And so I don't know Aira's business model completely, 
but a purchaser of a device might not actually be using that 
device on their own broadband network.
    The device might bring the broadband with it, if you will, 
and that's a way, if there is a need for prioritization and 
even for the application waiver----
    Ms. Eshoo. And that was included in the 2015 rule, right?
    Mr. Wood. It was, and 2010 as well, and this is the kind of 
thing we've always seen with----
    Ms. Eshoo. And the court upheld that.
    Mr. Wood. That's true.
    Ms. Eshoo. Very importantly, the courts upheld that. Mm-
hmm. I am sorry, go ahead.
    Mr. Wood. And then, as to new forms of discrimination, we 
just believe that the kinds of things Chairman Blackburn was 
describing--for example, distortion further into the network or 
especially at interconnection points, as they're called, where 
the last-mile broadband network receives all this traffic that 
their users are subscribing for--the users are requesting, and 
if it can't get to them due to some sort of blockage further up 
the line or if there is some kind of new form of discriminatory 
treatment towards the broadband providers and users, we would 
like the FCC to have the ability to assess that and determine 
the statute is unreasonable discrimination to assess whether a 
tactic or a technique is actually benefiting users or hurting 
them.
    Ms. Eshoo. Is there anything that you know of, that you can 
think of, that makes the case for paid prioritization plausible 
or acceptable?
    Mr. Wood. I mean, as I said, some people might postulate 
that it would save money for the broadband providers' 
customers. We just haven't seen that happen, and when you have 
so few choices among broadband providers----
    Ms. Eshoo. Well, how do you save money if you're paying 
more?
    Mr. Wood. Well, you wouldn't be saving money. I think that, 
you know, sometimes there's a notion that if the edge provider 
pays, the user won't have to, and what we think of this as is 
more double charging.
    The broadband provider's customer continues to pay for 
their access, and then the two-sided market, or the handout in 
the other direction, says now the edge provider pays as well.
    So, as I said, I don't think that the ISPs think of this as 
a way to save money.
    Ms. Eshoo. Yes, it's about as clear as fog. Yes.
    Well, I just--I wish I heard a very clear case from the 
wonderful first three witnesses on why paid prioritization is a 
very good thing for anyone using the internet, and I haven't 
heard it.
    I admire the different services that you have referred to 
and all of that, but I think that we've got some fog in this 
hearing, and paid prioritization is paid prioritization.
    I don't find anything foundational and positive about it.
    Thank you to all of you, and I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Latta, you're recognized.
    Mr. Latta. Well, thank you very much, Madam Chair, and 
thanks for our witnesses. As my friend from Illinois said, this 
has been a very interesting hearing. I appreciate you all being 
here to give your testimony today.
    Mr. Bennett, if I could start my questioning with you. What 
are the impacts of traffic management on different 
applications? And if all video conferencing applications such 
as Skype or Facetime were in the same traffic lane as general 
email traffic, how would that impact each service?
    Mr. Bennett. Thank you for the question.
    The network operators have to manage a pool of resources, 
and one of the resources that's really critical is what 
engineers call latency. It's delay. It's how long it takes a 
packet to get from one point to another.
    Low latency is a resource that networks never have an 
infinite supply of. It always has to be managed.
    So it's very important for these video conferencing apps to 
have low latency because, if they don't, the picture breaks up, 
you hear, like, dropouts in the audio channel, and the overall 
accuracy and the feeling of sort of presence of being as if 
you're in the same room with the person you're talking to, you 
can't achieve that without very low latency.
    Latency doesn't make any difference to email applications. 
I mean, they're perfectly fine with, you know, and network time 
is measured in, units of, like, millionths and billionths of a 
second, and email operates more at the level of, like, minutes 
and hours.
    So, I mean, it doesn't really matter. So when we assign, 
effectively, low latency to an email packet that doesn't need 
it simply because we are sending packets in the order they were 
received or in some other sort of semirandom order, we are 
wasting a resource.
    And so it's actually--I think it's a bit irresponsible to 
just sort of treat all traffic the same, because that means we 
are ignoring the fundamental requirements that the users of 
those services have.
    Mr. Latta. Thank you.
    Mr. Rysavy, if I could ask you--in my district and across 
the country, there's a great deal of interest in manufacturing 
and other sectors that we see increased efficiency from the 
Internet of Things.
    IOT will be made of next-generation sensors and automated 
equipment such as drones and robots that can provide real-time 
and HD video imaging, audio, and other bandwidth-intensive 
sensing, monitoring, automated processes.
    In a world without prioritization, can the Internet of 
Things become a reality?
    Mr. Rysavy. It would come to a very partial reality. The 
fact is that the application and quality of service 
requirements for different applications vary.
    So there may be some IOT applications that don't need 
prioritization. But to expand the number of applications to 
allow innovators the full range of everything that is possible, 
many of these techniques of quality-of-service management will 
be essential.
    Mr. Latta. OK. Well, just a quick follow-up then: So what 
would that mean for overall U.S. competitiveness in 
manufacturing?
    Mr. Rysavy. The more artificial restrictions that there are 
on what kind of applications can be deployed, the less 
competitive industry will be because you can be assured that 
other countries who wish to dominate in this space are not 
going to handicap their technologies.
    Mr. Latta. OK.
    Mr. Bennett, going back, if I could, to you, we often hear 
about how ISPs prioritize packets that manage traffic 
congestion to complete a user-friendly experience.
    However, we see edge providers pay to prioritize search 
results, advertising, social network feeds, shopping options, 
et cetera. Given that this form of paid prioritization is 
happening every day, I would like to understand the impact that 
it has on consumers.
    Mr. Bennett. Thanks for the questions.
    Yes, we can see some of the impact of the prioritization of 
search results and how the market has changed for product 
search. For a very long time, Google was the dominant company 
in product search.
    But nowadays more people begin product searches on Amazon 
than do it on Google, and I don't know exactly why that is 
happening, but I think it has something to do with the fact 
that, when you do a Google search, the first few answers you 
get are all paid ads, and they're not always very relevant, you 
know, to what you're doing, and they're certainly not as 
trustworthy as the organic search.
    So prioritization, I think, in that sense the company 
should realize that they've actually hurt their market position 
by distorting their search results that way and by the fact 
that the Google search is just not as effective as it used to 
be.
    Mr. Latta. Well, thank you very much.
    Madam Chair, my time has expired.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Clarke, you're recognized for 5 minutes.
    Ms. Clarke. I thank you, Madam Chairwoman, and I thank our 
expert witnesses for their testimony here this morning.
    And given that I also serve on the Small Business 
Committee, I strongly believe and maintain that the rollback of 
net neutrality is going to have a hugely detrimental effect on 
small businesses, and I am not alone in this belief.
    Polling indicates that an overwhelming majority of 
respondents are concerned that the elimination of net 
neutrality could disadvantage small businesses by allowing big 
national chains to put their online services in a fast lane.
    A number of small businesses in my district back in 
Brooklyn have been outspoken about this--small businesses like 
TakeShape and Staffbase--and I could co-sponsor the CRA to 
reinstate net neutrality in part due to their concerns.
    Given that, Madam Chairwoman, I would like to introduce a 
letter for the record and this record--it opposes the FCC's 
rollback of net neutrality and it's signed by 800 small 
businesses.
    Mrs. Blackburn. Without objection.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108168.
---------------------------------------------------------------------------
    Ms. Clarke. I thank you, Madam Chair.
    Mr. Wood, why are small businesses so concerned about the 
rollback of net neutrality, and why is rolling back the ban on 
paid prioritization worrying these businesses?
    Mr. Wood. Thank you, Congresswoman.
    I think it's pretty clear and simple: They don't want to 
have to pay extra to deliver their content to their customers.
    Now, it's not true that they're not paying. They pay a lot 
to get their content onto the internet, and they pay their own 
broadband provider, or sometimes they're even able to build 
their own connections.
    What we are talking about here is then paying my ISP at 
home separate charge either to cut in line in front of somebody 
else or perhaps just to get the traffic to me in the first 
place, and it's that extra and, frankly, new toll that I think 
has small businesses worried.
    I saw the poll that I think you're referring to, and it was 
something like 4 to 1 small businesses opposed to the repeal 
and worried about paid priority.
    A large number of them are uncertain how it would affect 
their business, so I find it funny that, in the name of 
creating more certainty, we've actually created great 
uncertainty for small businesses who thought this was 
unsettled.
    But that's the kind of fear they're facing is, ``Are there 
going to be new tolls and new charges that I must pay just to 
get my content to my customers?''
    Ms. Clarke. Very well.
    I've also been a strong advocate of diversity in 
traditional media companies, and that's why, along with my 
colleagues, I've created the Multicultural Media Caucus here in 
the House.
    The sad truth is that diverse voices are seldom truly 
represented in traditional media but that neutrality can in 
some ways help fix that problem.
    Mr. Wood, why is net neutrality important for groups that 
are not well represented in traditional media?
    Mr. Wood. Thank you, Congresswoman. I think it's for 
exactly that reason it does. It doesn't eliminate all barriers, 
but it lowers the barriers to speaking in one's own voice and 
getting your story out there.
    And so, traditionally communities of color have not been 
well represented on the airwaves. The internet helps to change 
that.
    Again, I think the notion that some have tried to put 
forward in this hearing is that prioritization and paid 
prioritization could help them compete with the biggest content 
providers, and I just can't see how that would work.
    I think if we did allow for paid prioritization, then the 
traditional media companies would be the first in line and the 
highest bidders for such slots and that the less well-known and 
well-established media companies and voices would be pushed to 
the back of the line.
    Ms. Clarke. Very well, and I remain concerned about the 
impact paid prioritization can have on innovation and new ideas 
and on new products.
    When a programmer in my district comes up with the next big 
idea, how can we help ensure her focus is on connecting with 
her users? And this question is to Mr. Wood and Mr. Schroeder.
    Mr. Wood. I will go just because my mic's on.
    I think this is how we can do it, is by preserving the 
internet as it always has been, where people pay their own 
broadband connection but then they're not asked to pay an 
additional toll just to reach the other side of that connection 
and we have each side of the conversation paying for their 
connectivity but not this extra toll where the ISP charges in 
both directions.
    Mr. Schroeder. Thank you for the question, Congresswoman.
    I think for Aira, we are a company that serves a rather 
small and underserved customer base providing a unique service, 
right. So people who are blind or visually compared constitute, 
you know, maybe 23 million of the population.
    The people who need our service don't really have an 
adequate technology-based solution. What most people would do 
is try to find a sighted assistant to provide some access to 
visual information, and there isn't always a sighted assistant 
around and, frankly, there isn't always a competent sighted 
assistant around to provide access to information.
    Getting to our users has been a real challenge. But to 
answer maybe the question you didn't ask, but for us, one of 
the limitations we worry about is--and one of the things we've 
seen before we had access to the dynamic traffic management 
that AT&T offers on its essentially high-priority private 
network--is that our users were not able to get their video 
through in a way that actually worked, because there were too 
many lags, too many delays, and too many dropped calls. And so 
they weren't able to have access to competent assistants using 
the Aira model.
    Ms. Clarke. I thank you, Mr. Schroeder, and I yield back, 
Madam Chair.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Guthrie, 5 minutes.
    Mr. Guthrie. Thank you very much, Madam Chairwoman, and 
appreciate the hearing.
    And this question is for Mr. Bennett, probably continuing 
on some of the same theme. I would like to discuss the debate 
over ISPs taking advantage of their gatekeeper position at the 
last-mile connection points by prioritizing content delivery 
for those who pay the most or even holding content hostage, and 
the counter position that they wouldn't have a viable business 
model if they did this.
    I may be oversimplifying this, but it seems to boil down to 
questions about relative bargaining positions within edge 
providers and ISPs and who has the unique advantage in this 
regard.
    So the question: In the development of the internet as we 
know it today, has there been a need for or practice of paying 
for priority of content delivery over the last mile?
    Mr. Bennett. It certainly hasn't been a widespread 
practice, if it has existed at all. There have been certainly a 
lot of claims that ISPs were holding certain content providers 
hostage for payment.
    In 2014, Netflix accused the major ISPs of doing that to 
them, but it turns out the network that was actually slowing 
their traffic down was their transit provider, Cogent. The ISPs 
didn't really have anything to do with it.
    Mr. Guthrie. So if it exists, you don't know of it? Is that 
what you're saying?
    Mr. Bennett. It certainly hasn't been widespread. I mean, 
in fact, I would like to see more willingness on the part of 
ISPs to sell prioritized delivery to application providers that 
had real-time apps, you know, like video conferencing and have 
never really seen much reason how that would benefit them to 
sell that service, because it would actually make third parties 
able to provide voice and face time just as well as the native 
products sold by the ISPs. This is especially the case at the 
wireless ISPs.
    Mr. Guthrie. So who has the stronger bargaining position 
over the last mile and what if an ISP with less than a million 
customers is dealing with an edge provider that has tens of 
millions of customers for their platform services?
    Mr. Bennett. Well, the day an ISP announces that it's not 
going to allow Netflix to use its network because, you know, it 
has some dispute and it's not getting the money, that's pretty 
much the day that you should short that ISP, as they're--nobody 
has the kind of bargaining position that Amazon and Netflix and 
Google have.
    Those are regarded as essential services by users of ISPs. 
There's no way the ISP can mess with them.
    Mr. Guthrie. Because a lot of my ISPs at the last mile are 
local--like, utilities, Bardstown City Cable is the ISP. Logan 
Telephone and Telegraph is the ISP for the last mile for a lot 
of the areas there that wouldn't have that kind of bargaining 
power that you're talking about.
    In your testimony also, you say sharing is inherent in the 
internet's design and go on to say access to shared resources 
of any kind implies the development and implementation of the 
sharing policy.
    Can you elaborate on what options network operators have to 
manage shared access to a scarce resource? In particular, how 
does class of service or smart queuing techniques alleviate 
congestion when network load increases to moderate or high 
levels?
    Mr. Bennett. Well, the purpose of class of service or type 
of service in IP is for the application to identify--tell the 
network what kind of service it needs, if it's a low precedence 
or whether their focus is capacity or reliability.
    The trouble with that is that, typically--and that's used 
internally by ISPs once they're able to determine what 
application generated a particular traffic stream, which they 
can do with a fair degree of accuracy, but it's never going to 
be 100 percent, especially as new applications emerge that the 
ISP hadn't seen before and, like, ``How do I treat this? Do I 
treat it just like generic traffic''--you know, which is 
probably 95 percent or it could be as much as 95 percent of the 
internet--``or do I give it some sort of specialized 
treatment?'' And the specialized treatment could be, like, it 
needs to be more urgently delivered than generic traffic, but 
it also could be less.
    And so there's a case to be made for, like, actually--if we 
can recognize the unique performance characteristics of 
different streams and then bargain appropriately, for some 
streams they're going to save money, because if it's like a 
patch distribution or something that can happen at 3 o'clock in 
the morning, it doesn't make sense for the ISP to charge a 
whole lot for that. In fact, it kind of makes sense to give it 
away for free, because it makes the network work better if all 
the computers are patched and up to date.
    Mr. Guthrie. So who manages these techniques? I got about 
10 seconds.
    Mr. Bennett. Yes. They're managed by network operation 
staff at the ISPs, and the tricky part, though, is that the 
boundary's between different ISPs or different networks--
between an ISP and a transit network. And so they operate on 
the basis of agreements and they typically don't articulate the 
treatment of nonstandard----
    Mr. Guthrie. Thank you. My time has expired. I yield.
    Mrs. Blackburn. Mr. McNerney, you're recognized 5 minutes.
    Mr. McNerney. I thank the Chair, and I thank the witnesses.
    As an engineer, I am deeply concerned and troubled by the 
FCC's decision to repeal the ban on paid prioritization and 
kick the scraps of net neutrality over to the Federal Trade 
Commission.
    Mr. Wood, does the FTC have the resources to enforce net 
neutrality?
    Mr. Wood. Thank you, Congressman.
    To my knowledge, they do not. They have an enforcement-
geared staff, and I think they do a good job but have trouble 
keeping up with the current caseload that they have, my 
understanding.
    Mr. McNerney. I've heard they don't have any network 
engineers. Is that right?
    Mr. Wood. That's what I've heard as well, yes, Congressman.
    Mr. McNerney. Well, I am concerned that, without an expert 
agency with network engineers on the case, we might never know 
if there are violations of net neutralities.
    Back in 2007, we only discovered net neutrality violations 
due to the work of an engineer working at home on his own.
    Might it be difficult for the average consumer to recognize 
their broadband provider is violating net neutrality?
    Mr. Wood. Yes, Congressman, I think it could, and in fact, 
with nobody to watch over that process, I do think that would 
be a problem.
    As we've heard, congestion can happen at different places 
in the internet and different parts of the network. The Netflix 
and Comcast disputes that Mr. Bennett referenced, a lot of 
people called their Comcast customer service representatives 
and said it's not coming through correctly, and the first 
answer from the company was, ``Maybe you should buy a faster 
speed tier,'' which wouldn't actually have solved the problem.
    So I think even the people who work in the network, either 
for good-faith reasons or marketing purposes, might not be able 
to pinpoint where the problem is and then actually help the 
customer to solve it.
    Mr. McNerney. Thank you.
    About veterans, in response to thousands of constituents 
who reached to me concerning their concerns about the 
elimination of net neutrality protections, I had a net 
neutrality town hall in my district to discuss their concerns.
    At the town hall, I heard from a veteran who was very 
worried about what this would mean for him and other veterans, 
including their access to health telenet services.
    Mr. Wood, given your experience with net neutrality, do you 
think veterans who need home telehealth services for in-home 
care should be concerned about the FCC's rollback of net 
neutrality?
    Mr. Wood. I do, Congressman.
    I think what they want is for the service to work, and so 
as we've heard there could be different use cases, different 
types of prioritization that the network already does to make 
sure that all applications can reach their destination.
    What I think veterans are worried about overseas is, ``I am 
already paying for my connection, which might be difficult to 
manage overseas, my family is paying at home''--is there going 
to be a news hole or a new kind of charge to make sure that 
traffic can actually reach his destination, and I think that's 
where the concern comes from, that this will be a new fee 
that's ultimately passed on to customers, even if it's the edge 
provider who is paying it in the first place.
    Mr. McNerney. Mr. Schroeder, do you have similar concerns 
about access with net neutrality protections disappearing?
    Mr. Schroeder. For the purposes of Aira's technology, 
again, we are concerned that we have access to a cell network 
that can deliver our video upstream in a way that is reliable.
    I don't know that the end of the Open Internet Order would 
adversely or would have changed our business model 
significantly whether or not that order was in place.
    I do think it is critical that we ensure that our veterans 
have access to the kind of service that Aira is providing, and 
I would say that, given the relatively underserved group that 
we are reaching out to, my sense is that that's not a group 
that probably gets priority under any structure.
    And so, without a company like Aira really pushing that 
issue and in our case having a good partner with AT&T in order 
to allow us to use a priority network, I am not sure that that 
service would be provided--our business model and our service 
would be provided--in a way that actually works for people in 
the real world, as we have to make it work.
    Mr. McNerney. Has Aira come out in favor of Mr. Doyle's 
CRA?
    Mr. Schroeder. We have not taken a position on any of the 
bills.
    Mr. McNerney. You referred to low latency several times in 
your testimony. Can you explain what that means?
    Mr. Schroeder. Yes. Low latency means a connection with no 
delays or minimal delays. And so, in our case, as we said, our 
video needs to be able to move through at, you know, what we've 
estimated currently ideally for Mbps.
    We think, with the new glasses that I am wearing--these are 
called Horizon--by the way, they're actually made almost 
entirely in San Diego so it's all U.S.-based, we are proud to 
say--that we may even need a little bit higher bandwidth in 
order to ensure that the quality of the video that these 
glasses are able to provide gets through.
    And the comment about busy streets and crossing streets: 
While Aira makes clear that we do not provide information to 
somebody in the midst of a street crossing because we want them 
to use their other skills, we do note that people need 
information very rapidly and very immediately, including out on 
the street in order to avoid obstacles.
    Mr. McNerney. OK. Thank you.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Olson.
    Mr. Olson. I thank the Chair. Welcome to our four 
witnesses.
    This question is for the entire panel. Just go from your 
right to left. Just give us your thoughts on prioritization.
    My hometown of Houston, Texas, was hit by Hurricane Harvey 
really hard this past August--hit us not once, hit us twice. 
Some parts of my district had 50 inches of rain--almost 5 feet 
of rain--in 2 days.
    The amazing efforts of the Houston law and local first 
responders before, during, and after Hurricane Harvey saved 
thousands of lives.
    With prioritization, isn't that important for our first 
responders? Shouldn't their traffic be prioritized in times of 
emergency?
    Mr. Bennett.
    Mr. Bennett. Yes, Congressman Olson, it certainly should--
and, as a former Houstonian who lived through Carla, quite 
sensitive to, you know, what went on down there recently.
    FirstNet is primarily--it's sort of, the value proposition 
for FirstNet, other than interoperability between first 
responders, is the ability to get, what do they call it, 
prioritized quality--preemption and priority.
    It's quality, preemption, and priority, so that first 
responders not only can get a connection during times of 
emergency, civilians want to use the networks and, you know, 
call people and let them know they're OK or they're not OK, and 
call for help, and all that. So there's a lot of pressure on 
the networks from facilities being down and high usage and so 
but, you know, we definitely want first responders to have 
priority access.
    Mr. Olson. Mr. Rysavy, your comments on priority access 
during times of natural disaster like Hurricane Harvey.
    Mr. Rysavy. Thank you, Congressman, for the question.
    Yes, absolutely, that's a perfect example of a situation 
where certain users such as the first responders do need 
access. But it's just an example of many, because from there 
you might consider a surgeon doing remote surgery--they might 
need prioritization as well. Thank you.
    Mr. Olson. Mr. Schroeder.
    Mr. Schroeder. I think emergencies provide two interesting 
examples of why Aira is so critical and why making sure that 
our information is getting through.
    The first one is a lot of the information that is provided 
during an emergency is inherently visual. There's maps and 
charts and graphics on television screens that indicate where 
one is supposed to go, what the storm pattern is, that sort of 
thing.
    Without access to Aira, it is very difficult for a person 
to get that information in a reliable sense. When somebody is 
relocated--if you can imagine a person who's blind, they're in 
an unusual setting--having access to Aira and a reliable visual 
assistant will allow that person to have better access to the 
shelter and have, of course, a better experience.
    Somebody might say that that's perhaps not critical. I 
would disagree. I think if somebody has relocated who's blind 
or visually impaired, they certainly need to be able to access 
the information around them successfully just like anybody else 
who's been relocated to that area, and Aira--ensuring that our 
video gets through is another way that that person is able to 
have the information about where they are as well as things 
that they need to know related to surviving that emergency.
    Mr. Olson. Amen.
    Mr. Wood, your comments on prioritization during natural 
disasters.
    Mr. Wood. Certainly. Thank you, Congressman.
    Yes, first responders deserve priority during disasters. I 
would say that was fully permitted under the 2015 rules that 
have now been repealed.
    And the last thing I would want is paid prioritization for 
first responders. I can't imagine having the ambulance or the 
fire department pay an additional toll on their way to the 
emergency.
    So I think that draws out the distinction we are talking 
about here.
    Mr. Olson. Good point.
    The final question for you, Mr. Bennett. Your testimony 
discussed internet optimization, and as you're well aware, we 
are at the beginning of a huge data boom, another massive data 
boom.
    Could you elaborate on possible tools that could be used in 
the future to help further efficiencies, to optimize the 
internet traffic, and also what role does AI play in the 
future?
    Mr. Bennett. AI is going to be essential, I think, to 
identifying traffic streams and mapping them to applications 
and determining what kind of service they need.
    The capability to do that has sort of increased an awful 
lot in network routers over the years and, well, it's sort of 
hard to draw the line between sort of better programming and 
AI.
    I mean, it definitely leans toward the side of AI, the kind 
of intelligence that networks have to have these days.
    Mr. Olson. My time has expired.
    I yield back. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Engel, 5 minutes.
    Mr. Engel. Thank you, Madam Chair and Ranking Member.
    When Mark Zuckerberg was before our committee last week, 
one of the things I asked him was about foreign influence on 
our democracy.
    In the FCC's docket that rolled back the ban on paid 
prioritization and the other net neutrality protections, 
Americans' identities were stolen and used to comment in 
support of Chairman Pai's rollback of net neutrality.
    It seems like another attempt at sowing division.
    Mr. Wood, have you received any of these fake comments 
filed in the FCC's docket?
    Mr. Wood. Thank you, Congressman.
    Have I seen them? Is that the question?
    Mr. Engel. Yes.
    Mr. Wood. I have seen some sampling of the 24 million 
comments, yes, and I know that there have been allegations 
about fake comments coming from foreign sources and from all 
sides.
    Mr. Engel. Do you think the FCC has done enough to address 
the fake comments in the record?
    Mr. Wood. No, I certainly don't. In fact, the attorney 
general of New York has tried to launch an investigation on 
behalf of New York State residents whose identities were stolen 
and inappropriately used in the proceeding.
    And I think it's fair to say the answer they've gotten from 
the FCC has been something of a shoulder shrug to this point. 
So I don't think the FCC has either used all of its own tools 
or cooperated strongly enough with other law enforcement 
agencies who want to look into this.
    Mr. Engel. What else should they have done?
    Mr. Wood. Well, I mean, I think it's a good question. We 
want to have maximum participation in these public 
decisionmaking processes.
    So I don't know if there's much they could have done to 
stop the inflow of any fake or fraudulent comments. I've heard 
that even several Members of Congress had their names used, 
including their street addresses. So it wasn't just a matter of 
filling in a fake name.
    I don't know what more they could have done at the 
beginning. But I do think they should have paused and 
considered what to do about the bad comments flowing into the 
record during the process and then maybe should have taken 
longer to consider what to do with them before voting.
    Mr. Engel. Would you anticipate legal challenges to the 
FCC's order repealing net neutrality based on the fake 
comments?
    Mr. Wood. Well, we have actually filed suit. Something like 
23 attorneys general, a dozen or more public interest 
organizations like ours, and internet companies as well, and 
also some local--for example, Santa Clara County and the 
California Public Utilities Commission.
    I think that will be part of the case. I can't tell you how 
much it will be part of the arguments or the judge's response 
to it.
    Mr. Engel. Mr. Wood, let me stick with you.
    You testified that getting rid of paid prioritization would 
radically change the internet. You said that the ban only 
prevented ISPs from favoring traffic in exchange for payments 
from third parties or to benefit an ISP's affiliated video or 
voice offers. But it did not ban user-directed traffic.
    So can you expand on that and explain a little more about 
how user-directed traffic works?
    Mr. Wood. Certainly. I hope so. The internet protocols that 
already manage these kinds of different needs for different 
types of applications, that goes on today. I think all the 
witnesses have spoken about it to some degree, and that kind of 
process was not prohibited by the paid prioritization ban.
    All that the rule prohibited was having an edge provider or 
some other third party come in and try to alter that natural 
balancing that goes on.
    If the balancing couldn't happen in what I would call a 
neutral fashion, with the protocols just deciding which 
applications need priority at that particular point in time, 
then the user could also pay their broadband provider, and we 
have more comfort with that because then the internet user 
remains in control of how their connection is being used, so 
which content they can get and also which type of application 
and services they might need to or choose to prioritize at a 
particular point in the day.
    Mr. Engel. OK. Well, thank you very much.
    Thank you, Madam Chair. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Bilirakis, 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. Appreciate it.
    I want to thank the panel for their testimony as well.
    Mr. Schroeder, as stated in your testimony, the speed of 
your service is near instantaneous, and when you discuss how 
the service is used not only for work-related tasks but helping 
people navigate city streets, speed is, clearly, a requirement. 
Isn't that the case?
    Mr. Schroeder. Yes, Congressman Bilirakis.
    Mr. Bilirakis. It seems your partnership with AT&T is 
central to your service. Isn't that the case?
    Mr. Schroeder. It is a very important element, yes.
    Mr. Bilirakis. Can you describe how the user experience 
would be different if Aira did not have this partnership and 
had to compete equally with all other internet traffic?
    Mr. Schroeder. I can, because we rolled out the 
relationship with AT&T's Dynamic Traffic Management Network 
about over the last four to six months.
    Prior to that time, we got many complaints from our users, 
and I am an Aira user myself and I also experienced many 
dropped calls, many significant delays in video, many instances 
where we had an audio connection with the agent but no video 
and they did their best using GPS and other sensor data that we 
were able to get upstream. But the lag in video created not 
only trouble for our business model, because we are a service 
that people subscribe to, but more important created challenges 
for people who are blind who, in the midst of needing a sign 
read to them, needing to make a decision about which direction 
to go, needing to find that last--we often--you talk about the 
last mile, we often talk about the last 20 feet, trying to find 
the right door. And oftentimes that's when the video would, 
unfortunately, kick out, and so just when you needed the 
information most.
    I know and I know our users experienced what the network 
situation was like before we had access to a priority network, 
and it was not a good experience.
    Mr. Bilirakis. So you just described the latency 
consequences?
    Mr. Schroeder. That's correct.
    Mr. Bilirakis. Yes. OK. Very good. Thank you.
    Next question: As a relatively new company, did you find it 
difficult to get a partner that would provide the 
prioritization services that your company needs to operate?
     Mr. Schroeder. You know, sometimes I am a little bit 
embarrassed. Aira gets a lot of attention. I think a lot of 
people find what we do to be quite remarkable and quite 
amazing.
    We actually had no trouble finding interest among carriers 
to work with Aira and to allow us to or to encourage us to work 
with their cell networks.
    AT&T was the company that came through with the best 
partnership and really showed the most interest in giving us 
opportunity to work with their priority network as well as, as 
I mentioned in my testimony, providing support for getting Aira 
into the hands of college students and in working with us in 
designing some of the technology that we are using, for 
example, to get access to prescription medication, which is one 
of the highest use cases that our Aira users often need to 
ensure that they're taking the right medicine.
    Mr. Bilirakis. That's great.
    I want to commend you for working with our veterans as 
customers, but also as employees. But I also want to give you 
an opportunity, because I do have some time, to describe how 
Aira works and how beneficial it is to your customers, if you 
please. And so, if you can elaborate a little bit more on it, 
because it is fascinating and it improves a person's quality of 
life.
    Mr. Schroeder. Thank you for that, Congressman Bilirakis, 
and I appreciate your support as well. We have so many 
wonderful stories from our Aira users who use the service, of 
course, in critical ways like navigating the Boston Marathon--
which, trying to move among runners, as you can imagine, is a 
very dicey proposition, especially in the weather conditions 
they had yesterday, and it speaks to the need for having a very 
strong network with low latency available to them.
    We've also had individuals who have spent a few hours 
working with an agent putting IKEA furniture together, and I 
don't know if I should mention a specific company. But I think 
we all know how challenging following some of those visual 
directions if you can see can be.
    Many of our users have found Aira to be extraordinarily 
helpful in navigating technology. There's a lot of great 
technology, such as what I am using here with this Braille 
device that makes information available to blind people. But it 
sometimes doesn't work. It sometimes breaks down, and when it 
breaks down we are suddenly--we are confronted with a blank 
screen--blank to us because we can't see it--and being able to 
quickly grab an Aira agent via the smart glasses and 
application allows us to have access to what is on that screen 
so we can hopefully save our work and be able to continue to be 
productive.
    Oftentimes in the past--I know the time is up--but 
oftentimes in the past, it would take several minutes or maybe 
hours to find somebody sighted to come and help figure out what 
was on that computer screen. Now we've got that instantaneous 
with Aira.
    Mr. Bilirakis. Well, thank you very much. And I know it's 
very beneficial to our constituents. I appreciate it, and I 
yield back, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Flores.
    Mr. Flores. Thank you, Madam Chair.
    Madam Chair, I would ask to enter into the record an 
article written today by Roslyn Layton of AEI that's called 
``Prioritization: Moving past prejudice to make internet policy 
based on fact.''
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Flores. Thank you.
    Mr. Bennett, talking about 5G for a minute, the next leap 
in technology for wireless, does China have a ban on paid 
prioritization?
    Mr. Bennett. Not as far as I know. The telecom carriers in 
China are state-owned enterprises.
    Mr. Flores. Right.
    Mr. Bennett. And they're pretty much able to----
    Mr. Flores. How about Japan?
    Mr. Bennett. Japan, I don't think it does.
    Mr. Flores. They don't? And South Korea? Do they have a ban 
on paid prioritization?
    Mr. Bennett. No, definitely not. South Korea offers all 
kinds of gradations of internet.
    Mr. Flores. So we talked about discrimination against rural 
communities. Let's assume this fact pattern for a minute. You 
have got an ISP that has an internet pipe going into a rural 
community. That rural pipe drives or carries the traffic for a 
new 5G network that we have in that rural community, but it's a 
limited-size pipe.
    So you're going to have 5G traffic. You're going to have RS 
traffic going over it. You're going to have FirstNet going over 
it, hospitals, schools, and then on a Saturday night, 80 
percent of the traffic is going to be coming through because of 
video.
    If you don't have paid prioritization, what happens to 
everybody's traffic under that scenario?
    Mr. Bennett. Well, if you don't prioritize, then what 
happens is when network load increases and latency increases, 
and it's sort of every app is affected to some degree, and the 
more sensitive apps are affected more seriously.
    Mr. Flores. OK.
    Mr. Bennett. So I think one of the implications is that, 
for rural users, is if you can't get consistently low latency 
for Skype, then you're going to have to keep on paying for an 
old-timey telephone connection because your Skype is just never 
going to be reliable.
    Mr. Flores. And Mr. Schroeder, what would that do to your 
Aira users, if you're in that community without a paid--again, 
there's no paid prioritization.
    Mr. Schroeder. Yes. We do have users in the rural areas, 
and there is often a struggle to ensure that we've got good 
network access for those individuals. That is something that we 
certainly look forward to, further network development.
    Mr. Flores. And so, Mr. Woods talked a lot about 
discrimination against different populations because of a paid 
prioritization. It sounds to me like the opposite is true.
    If you have a ban on paid prioritization, it would 
discriminate against your population of sight-limited and also 
veterans. Does that make sense?
    Mr. Schroeder. We don't know----
    Mr. Flores. Again, using the same example.
    Mr. Schroeder. Congressman, we don't know whether that's 
true or not. But we suspect--what we do know is that having 
access to a reliable network is critical, and in this case we 
are able to use a priority network for that purpose. So that is 
helping.
    Mr. Flores. OK. And so, but if you didn't have access to 
that paid priority network, then you wouldn't be able to have 
that service with the low latency?
    Mr. Schroeder. Our service certainly suffered prior to that 
access.
    Mr. Flores. OK.
    Mr. Bennett, in order to offset that--again, you have got 
this community, it's got a new 5G network, it's got limited 
last-mile capability--who pays to expand the capacity?
    Mr. Bennett. In the absence of anyone else coming up with 
the desire to do that, it's going to be the carrier.
    Mr. Flores. OK. And so then----
    Mr. Bennett. Who is going to pass the cost on to the 
consumer.
    Mr. Flores. Right. So essentially, if you don't have paid 
prioritization, then everybody pays to offset the latency 
issues that are introduced because of a ban on pay 
prioritization. Is that correct?
    Mr. Bennett. Absolutely, just as today the people who don't 
use Netflix pay for the capacity upgrades that enable others to 
use Netflix.
    Mr. Flores. OK. So, again, the cost is being socialized for 
the people that want to use lots of bandwidth across the entire 
population, even those who don't use the bandwidth.
    That doesn't sound fair to me. I mean, we have a population 
that pays for priority TSA pre-check, pays for toll lanes, pays 
to use UPS instead of the mail service, or pays for priority 
mail.
    It seems to me like folks ought to pay for their fair 
share.
    Madam Chairman, I yield back the balance of my time. Thank 
you.
    Mrs. Blackburn. The gentleman yields back.
    Mrs. Brooks, you're recognized 5 minutes.
    Mrs. Brooks. Thank you, Madam Chair.
    I would like to just clear up and make sure we are all on 
the same page relative to FirstNet--FirstNet, obviously, being 
the network that has been created most recently to ensure the 
public safety has the ability to communicate and gets priority 
in the case of emergencies and disasters and is now just 
beginning to be built out across the country and so forth.
    But there is a ban on paid prioritization involving 
FirstNet, is there not? I am a little bit confused.
    Mr. Bennett.
    Mr. Bennett. There's not. FirstNet is a special-purpose 
network that's separate from the regular--or is sort of a 
supplement to the regular mobile network.
    But the preemption of the--or the relocation of the old 
Title II regulations that were enacted by Chairman Wheeler 
means that there is no ban on paid prioritization for anyone.
    Mrs. Brooks. OK. And so how is it that we can ensure that 
FirstNet, for instance, will receive that priority in an 
instance of a disaster?
    Mr. Bennett. Well, FirstNet is designed to do that. So if 
it doesn't do that, then it's failed to meet its primary goal, 
which is quality, preemption, and prioritization.
    But the thing that worries me about FirstNet is, because it 
does so many things that fall outside the realm of what the 
traditional net neutrality advocates have demanded, what's to 
prevent one of them--Mr. Wood's organization or some similar 
organization--from simply filing a suit against FirstNet for 
violating net neutrality?
    Mrs. Brooks. Mr. Wood, you brought this up a little bit. 
Can you please comment on this? Because I do want to make sure 
that we all are on the same page when it comes to the 
importance in the preemption of FirstNet.
    Can you please comment?
    Mr. Wood. Certainly, Congresswoman.
    I think my earlier answer was that, yes, emergency services 
deserve priority. They could have had that under the rules that 
have now been repealed.
    Mr. Bennett is correct that they don't face any such rules 
today because there are no rules in place at the moment, or at 
least there won't be when the rule changes take effect here in 
the next few weeks.
    But, again, I think what we keep missing is the distinction 
``prioritization'' and ``paid prioritization.`` And so, again, 
the last thing I would want is for first responders to have to 
pay to prioritize their traffic during times of emergency. They 
were able to prioritize for any kind of public safety or 
emergency use case under the old rules, and I think that's what 
should continue now.
    Mrs. Brooks. But that's not being contemplated right now, 
is it?
    Mr. Wood. I think what's being contemplated is FirstNet is 
actually designed to be a prioritized network for first 
responders, and that would not have violated the 2015 rules 
that have now been repealed. It's not a violation of anything 
now. It's nothing that we would fight against.
    We have three lawyers, so we are not really in the business 
of filing more lawsuits than we need to.
    Mrs. Brooks. OK. So you have no plans on filing any 
lawsuits?
    Mr. Wood. Certainly not.
    Mrs. Brooks. OK.
    Mr. Bennett. Could I----
    Mrs. Brooks. Yes, Mr. Bennett.
    Mr. Bennett. Can I add something to that?
    Mrs. Brooks. Yes.
    Mr. Bennett. Mr. Wood says that paid prioritization is not 
part of FirstNet. But first responders pay to be part of 
FirstNet.
    They pay to use--it's not a free service, right. So it's 
partially paid for by fees that States and municipalities give 
up to be part of that network. And so then, once they've paid 
those fees, then they get all the prioritization they need.
    Mrs. Brooks. So how will a ban on paid prioritization 
implicate FirstNet, Mr. Bennett?
    Mr. Bennett. I am not sure that it would for the use of the 
primary channel. But first responders--FirstNet is designed 
actually use bandwidth that's available over regular commercial 
networks as well when, you know, when it needs to.
    And so I think there could be scenarios in that secondary 
usage of the other channels that could subject FirstNet, 
certainly, to a challenge.
    Mrs. Brooks. Very briefly, Mr. Rysavy, shifting gears a 
minute, can you comment on how 5G will inherently prioritize 
traffic to handle a wider range of applications than 4G?
    Mr. Rysavy. Thank you for the question, Congresswoman.
    5G is being designed with a very sophisticated quality-of-
service architecture with which traffic flows can be managed 
not only for priority but also for latency, possibility of 
packet loss, guaranteed bandwidth, and so forth. So you really 
need to manage all of those aspects to be able to provide 
services with exactly the type of performance that they need.
    Mrs. Brooks. Thank you. My time is up. I yield back.
    Mrs. Blackburn. Gentlelady yields back.
    Mr. Doyle just told me that baseball players get priority.
    [Laughter.]
    Mrs. Blackburn. And so he favors priority.
    Mr. Doyle. Good ones. Good ones that are on the committee.
    Mrs. Blackburn. So you are--you're recognized.
    Mr. Ruiz. Given that I am the only other Democratic Member 
here and that I've had my share of splinters collected, sitting 
on the bench, I appreciate that, Coach Doyle.
    Thank you. As a physician, I think we have obligation to 
make sure that we are using the internet and technology to help 
improve the public's health.
    The FCC's 2015 net neutrality protections actually came up 
with a very targeted way to ensure specialized services like 
telehealth and public safety technology are allowed to thrive.
    But I am concerned that the current FCC has done the 
opposite by abandoning any protections that prohibit big 
corporations from paying for their services to be prioritized 
over these telehealth-type services.
    So, with that in mind, I would like to introduce a letter 
for the record from the American Medical Informatics 
Association that expresses these concerns.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Ruiz. Thank you so much. So my first question is for 
Mr. Wood. It's very simple: Is there anything in the FCC's most 
recent net neutrality order that will ensure, guarantee 
hospitals, community health clinics, and local police 
departments won't just get pushed into slower lanes because 
they can't afford to bid against the big megacorporations down 
the road?
    Mr. Wood. Thank you, Congressman.
    Not to my knowledge. I know that the current order 
basically took away all of the traffic management rules and 
guidelines and left it to the ISPs. It has some transparency 
obligations that they face, but nothing that would speak to 
their ability to either charge for priority or not.
    Mr. Ruiz. Yes. So there are no safeguards to guarantee that 
these vital public health services are protected and not 
marginalized for profit motive?
    Mr. Wood. That's right. To my knowledge, there are no 
safeguards and basically this FCC has washed its hand of the 
business and said that they are not going to have any rules 
whatsoever when it comes to what ISPs try to prioritize or not.
    Mr. Ruiz. OK. And what would you do to ensure those 
safeguards?
    Mr. Wood. Well, we have supported the Congressional Review 
Act resolution of this approval to restore the 2015 order. We 
feel it's important to restore the entirety of the rules that 
were lost but also the FCC's ability to investigate if 
something like that were to occur.
    So sometimes this is talked about in a competition 
framework, and that matters. But we would certainly want to FCC 
to have the ability to investigate if it were a certain kind of 
telemedicine or health application being discriminated against, 
even if that were not to favor another telemedicine application 
but simply were a bad choice made by the cable or phone 
company.
    Mr. Ruiz. OK. And, as a lawyer that follows net neutrality 
closely, can you explain what it means that the FCC's original 
net neutrality protections treated telehealth as a specialized 
service? What does that mean?
    Mr. Wood. Well, it means that they were allowed to be 
treated as specialized services. I would note that I think many 
telehealth applications can and do run over the open internet.
    So it's not the case that every health application, or 
every medicine application, even, has to be treated as a 
specialized service.
    I don't know if the word has a lot of meaning for folks. I 
sometimes think of it as dedicated capacity. And so, if you 
have an application that does not fit well on the open 
internet, it needs additional protections, then it could be 
treated as a specialized service--again, usually paid for by 
the person who has the arrangement with the ISP.
    So not necessarily this additional kind of toll, where 
they're paying twice, both for their own connectivity and for 
priority in the last mile, but simply arranging their own kind 
of delivery privately.
    Mr. Ruiz. One of the biggest challenges that we have is in 
rural America, where you don't have population centers that can 
access the infrastructure for broadband and other things, even 
for commercial use. These are exactly the locations where we 
want to promote telehealth, because they need access to doctors 
and health care services.
    Do you think it's a valid concern that, without the strong 
net neutrality protections, we might undermine innovation in 
the medical space and elsewhere?
    Mr. Wood. I do, Congressman.
    I think that the genius of the internet has been that 
application makers can come up with their ideas and not have to 
pay an additional toll to bring them to market or to get them 
through that last mile to the user.
    And so, when you do have a small ISP--I have the same 
concerns, not just that the small ISP might serve as a 
bottleneck but, if they were really were at a bargaining 
disadvantage with the biggest edge providers, then perhaps that 
content would be prioritized rather than the small application 
makers or innovators.
    Mr. Ruiz. We are starting to see a lot of tech-medicine-
type opportunities for people in rural areas that haven't been 
served for mental health services.
    And so now you're seeing folks on their phones or their 
pads, their computers being able to actually have counseling 
for the first time and be connected with other addiction 
services groups to provide social support networks to get the 
care that they need.
    And so I am just concerned that this is going to inhibit 
that progress that is being made out there.
    Thank you very much.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Johnson, 5 minutes.
    Mr. Johnson. Thank you, Madam Chair, and thank you, 
gentlemen, for joining our panel today.
    Mr. Schroeder, a lot of parties paying attention to this 
hearing have pushed the idea that we don't need to worry about 
whether an application like Aira could avoid a paid 
prioritization ban in the future, since past net neutrality 
attempts have always included an exception for specialized 
services.
    Setting aside the problem that past performance does not 
predict future results, that is actually incorrect. The 2015 
Open Internet Order specifically rejected the, quote, 
``specialized services,'' unquote, carve out, providing instead 
an exception for ``services that are not broadband internet 
access service unless a service that is not broadband internet 
access service is provided in a manner that undermines the 
purpose of the open internet rules.''
    Now, do you understand what that means? Because nobody else 
understands what that means.
    Mr. Schroeder. No, Congressman. The way you phrased it, I 
can't untangle that thicket.
    Mr. Johnson. Yes. Well, nobody else can either. So Mr. 
Rysavy, your thoughts on this. Would that definition give you 
any confidence that some of these services we are talking about 
would meet the FCC's approval?
    Mr. Rysavy. Congressman, thank you for asking.
    No, not at all. The exception for specialized services is 
ill defined and certainly does not foster innovation or any 
confidence in moving forward with such applications.
    Mr. Johnson. All right. Well, thank you.
    You know, the devil is in the details. This is one we need 
to make sure we get right, or a paid prioritization restriction 
could do some real harm.
    Mr. Wood, moving on to you, you seem to indicate in your 
testimony that broadband was considered a Title II service 
until the Bush FCC tinkered with its classifications.
    What you didn't mention, though, was that the Obama FCC 
agreed with that classification of broadband as an information 
service and left it there in its first attempt at net 
neutrality rules in 2010, and even the 2015 Open Internet Order 
acknowledged the long track record here.
    It spelled out all the history and tied the determination 
that broadband was an information service all the way back to 
the computer inquiries that the FCC had decided over 50 years 
ago.
    The Commission was very specific that it was changing its 
mind and disavowing all the previous precedent to reclassify 
broadband into a Title II telecommunication service.
    So do you disagree with the determination by Chairman 
Wheeler that, before 2015, broadband had always been an 
information service?
    Mr. Wood. I don't know that he said it precisely that way, 
but I do disagree with that phrasing.
    Before 2015, you mentioned the first Obama administration 
attempted at neutrality rules. Like the rules that were adopted 
at the tail end of the Bush administration, those were struck 
down in court. So there's a reason that we went back to the 
drawing board and talked about it again.
    The dispute here is not so much whether broadband was an 
information service but whether internet access was, and there 
are two parts of that. There's the connection that gets you 
online. Then there's the service or the content you interact 
with once you're there.
    So there has been some historical dispute about whether 
something like AOL, for example, was an information service. I 
would say that it was. It was allowing you to browse the 
internet, but only once you got to that site using your phone 
connection.
    And what we say is that from, really, before 2002 all 
internet access, that physical connection was Title II. The FCC 
started to change that and said that access over a cable line 
could be considered an information service, and that's when the 
attempts to prevent discrimination on those lines started to 
fall down in court. So that's why the FCC returned to what we 
see as the rightful legal definition.
    Mr. Johnson. Got you. OK.
    Mr. Bennett, most of us subscribe to mass-market retail 
broadband. This means that, rather than each of us having a 
dedicated pipe to just our home, we are sharing bandwidth with 
all of our neighbors who also subscribe to that same service.
    So, if everyone on my street is streaming videos in the 
evening to broadband speeds, I am getting what might be slower 
than I would experience at another time when not as many users 
are on the connection.
    So here's my question to you: What happens if there's an 
emergency that I need to call 9-1-1 on my voice over IP-enabled 
phone? Since that call goes over my broadband connection at 
some point, will it also be caught up in that video congestion? 
Will my 9-1-1 call be degraded so someone can watch a cat 
video?
    Mr. Bennett. The short answer is yes.
    Mr. Johnson. OK. That's about all I can ask for.
    Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mrs. Walters, 5 minutes.
    Mrs. Walters. Thank you, Madam Chair, and thank you, 
witnesses, for being here.
    When talking to my constituents back home about tech 
issues, one of the questions I've been asked is how 
prioritization could impact them.
    I know some of my colleagues have covered a couple of these 
issues, but I would like to ask a few questions that some of my 
constituents have been asking me.
    One thing that comes up is the issue of degradation and 
internet traffic management. Some people have expressed 
concerns that prioritizing certain traffic over other degrades 
the traffic that is not prioritized.
    Mr. Bennett, in your testimony you mentioned the 
Differentiated Treatment of Internet Traffic report, which, 
quote, ``demonstrates that traffic differentiation is not a 
zero sum game.''
    Could you explain what that means for the average internet 
consumer?
    Mr. Bennett. Yes, I can.
    I was a member of the committee that wrote that report. The 
point is that, because applications are not all created equal, 
a sort of a theoretical or a literal degradation of an 
individual piece of information by a millionth of a second or 
so may qualify in a legal sense as a degradation.
    It's not a degradation that the consumer will perceive. And 
so, given that we are placing so much importance on polling 
and--you know, which is sort of a question of measuring 
perception--the question is whether there's a perceptible 
degradation, and in that sense prioritization is certainly 
provably empirically without a doubt unquestionably not a zero 
sum game.
    Mrs. Walters. OK. Thank you.
    And Mr. Rysavy, in your testimony you talked about network 
slicing and its relationship to quality-of-service management. 
Can you explain the concept of network slicing in layman's 
terms and how it affects the average consumer?
    Mr. Rysavy. Thank you, Congresswoman, for the question.
    Network slicing is an architectural aspect of 5G. 
Basically, it's a way that the network will present different 
faces for different usages.
    So, in theory, an operator could develop a slice for 
autonomous vehicles, another slice for a factory automation, 
and so forth, and each of these will require very specific 
quality-of-service requirements among which traffic 
prioritization is essential.
    What it translates to the user is that, with network 
slicing, they will see a wide range of new, innovative services 
coming to market.
    Mrs. Walters. Thank you.
    And throughout this hearing, there's been a discussion 
about the different forms of prioritization, and I think we can 
all agree that there are instances where certain traffic has to 
be prioritized over others, like the example that we've been 
hearing a lot lately is prioritizing 9-1-1 call over a cat 
video.
    Mr. Bennett, can you talk about types of bad 
prioritization, including types we should actively prevent?
    Mr. Bennett. You know, I think any sort of negative 
prioritization that's intended to impair the performance of a 
competitive product to the carrier is something that should be 
looked at with suspicion. But I think it's sort of covered 
under general antitrust law.
    I am not a lawyer like Mr. Wood is, so I can't really 
justify that. But it's my sense, the way it's been explained to 
me, that the violations that we are concerned about are 
essentially already prohibited under sort of the general laws 
of regulating business in the U.S.
    Mrs. Walters. Mr. Wood, would you want to add anything to 
that?
    Mr. Wood. I could. I think the antitrust could be a remedy 
for some competitors, say, if Comcast decided to block Netflix. 
I don't think it would be a very useful remedy in all 
instances, especially if there were smaller video providers who 
were suffering from that kind of blockage or deprioritization, 
and I think all we have to do is look at cable TV, where you 
don't have some kind of common carrier mantra and framework.
    You know, cable TV is not illegal under the antitrust 
standards. Cable providers do pick and choose which content to 
show you.
    The question is, should we have no safeguards whatsoever 
and make the internet more like cable TV or should we have the 
same kind of two-way open transmission network we've had that 
lets people go to any site of their choosing.
    Mrs. Walters. And what should Congress consider doing to 
prevent these types of prioritization activities from 
occurring? And Mr. Bennett and then Mr. Wood, if you'd like to 
join in.
    Mr. Bennett. I would rather that Congress adopt a generally 
permissive attitude. There's been so much demonization and so 
much sort of emotional rhetoric and spin and framing in this 
discussion that I think we've just sort of--we've gone way 
overboard on the side of caution.
    So let's let a few things happen. Let's allow some 
experiments like Aira to take place and examine the marketplace 
and then, if something is going on, then step in and correct, 
but preemptively allow people to innovate.
    Mrs. Walters. My time is up.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Costello for 5 minutes.
    Mr. Costello. Thank you.
    Mr. Rysavy, I enjoyed reading your testimony----
    Mr. Rysavy. Thank you.
    Mr. Costello [continuing]. And found it very helpful. I 
want to cite something and ask you this question. Mission 
critical use-case-model-type analysis that you provided, you 
state, ``This category of 5G application will depend on the 
ability to deploy traffic prioritization.''
    Can you just briefly explain why prioritization will be 
necessary for 5G? Is it necessary, and if so, why?
    Mr. Rysavy. Thank you for the question, Congressman.
    Yes, prioritization is an absolutely essential aspect of 5G 
in enabling new use cases. The whole motivation for investing 
hundreds of billions of dollars in 5G networks is to expand 
what can be done with wireless technologies, and being able to 
support mission critical applications is going to be a great 
expansion of capabilities compared to 4G.
    Mr. Costello. And along that line, and I think the 
terminology here--I think everybody supports net neutrality, 
broadly speaking--certain types of paid prioritization, I 
think, obviously do fall under FTC and are anticompetitive.
    When you speak about prioritization here, what you're 
speaking about is organizing slices based on the type of data 
and what it's used for. Is that correct?
    Mr. Rysavy. That is correct.
    Mr. Costello. Is there a better way for you to--would you 
embellish on that, if need be, or was that----
    Mr. Rysavy. No, the whole point is to recognize that 
different types of applications have different requirements. 
Some may need very high bandwidth but can drop a lot of packets 
because it won't impact the user experience. Others might be 
very low bandwidth, but the reliability of information carried 
might be absolutely crucial.
    Mr. Costello. You go on to say, ``But unprioritized and 
competing with other traffic, the latency ... can be 10 times 
higher, for example,'' and then you go on. And what you're 
saying there, I believe, is that, if we don't have 
prioritization, that you will end up across the board 
generalized with slower data getting from point A to point B. 
Is that correct?
    Mr. Rysavy. Yes. The point I am making is that, if you have 
to treat every packet equally, that you will end up degrading 
the average quality of experience across the base of 
applications.
    Essentially, prioritization is an extremely powerful tool 
for network management, and to ban it really undermines the 
value of these networks, moving into the future.
    Mr. Costello. Mr. Wood, what's your response to that?
    Mr. Wood. I think it's just where we began, Congressman: 
that we haven't called for a ban on prioritization done in a 
neutral fashion to make sure that applications work. We've 
called for a ban and the rules had a ban on paid 
prioritization, meaning that the edge provider, the app maker, 
whomever we want to think----
    Mr. Costello. The one you have the content associated with 
it. But don't you agree that the FTC already has jurisdiction 
over that and is able to enforce?
    Mr. Wood. Well, the FTC might have jurisdiction, or DOJ 
might if we could make it come to----
    Mr. Costello. Well, they do or they don't, don't they?
    Mr. Wood. Well, they have jurisdiction over certain kinds 
of anticompetitive conduct. They don't have jurisdiction if my 
own home connection is suffering because I can't reach the 
content that I want, and I am focused on the internet user, not 
just this battle between Comcast and Netflix or any other two 
large providers.
    Mr. Costello. Isn't in the interest of the company to make 
sure that the user does have access?
    Mr. Wood. Well, I think what we are talking about today, 
though, shows that there are use cases for prioritization. So 
they have general interest in making sure that content is 
available, but that they might then pick and choose which 
content is available at which terms for people who pay more.
    Mr. Costello. I had another question. This is tangential, I 
apologize. But the fake comments--what is your--I mean, what is 
a fake comment?
    Mr. Wood. Well, I think there are different kinds one could 
describe as less valuable. We certainly think the petition----
    Mr. Costello. But isn't the FCC able to sift through that 
and determine what's valuable and what isn't?
    Mr. Wood. Well, I think they said they are not going to 
decide what is fake and what isn't. So, to me, something that 
is obviously fake or fraudulent is somebody using----
    Mr. Costello. But what's fake?
    Mr. Wood. Somebody using somebody's else identification and 
name and address to put a comment in.
    Mr. Costello. But the content, isn't it about the content 
and not who says it?
    Mr. Wood. Well, I do think people have a right to not have 
things said in their name. So, if somebody put a comment in for 
you supporting Title II, you might care.
    Mr. Costello. People say that I--fair point. But 
ultimately, though, the FCC would be looking at the content of 
the comment, not who said it. Wouldn't that be accurate?
    Mr. Wood. I would hope they would look at the content, but 
I think it matters who said it too because people have a right 
to speak in their own name and not have others speak for them 
or pretend to speak for them.
    Mr. Costello. But the FCC wouldn't decide something one way 
or the other just because a specific person said it or didn't 
say it. Wouldn't that be correct?
    Mr. Wood. That's right, and I think that they still have an 
obligation to make sure their record isn't tainted by people 
basically engaging in identity theft in order to make comments 
that are not actually their own.
    Mr. Costello. Sometimes we probably wish people wouldn't 
taint our comments too.
    OK. Thank you. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Seeing that there are no further Members----
    Mr. Doyle. Madam Chair?
    Mrs. Blackburn. Yes, sir.
    Mr. Doyle. Can I ask unanimous consent, in addition to the 
letters from pediatricians, telehealth experts, small 
businesses, and others supporting a ban of paid prioritization, 
I have one additional letter from the Consumers Union that I 
would like to introduce onto the record.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you.
    Mrs. Blackburn. Yes. You all have been gracious with your 
time and with getting your testimony in.
    Before we conclude, I do want to submit for the record, and 
ask unanimous consent to do so, tweets of CloudFlare CEO 
Matthew Prince; a report by Richard Bennett, ``Designed for 
Change''; a report by BITAG; Daniel Lyons' article; your 
comments, Mr. Rysavy; a report by Mr. Rysavy, ``How Wireless is 
Different''; and an article by George Ford.\1\
---------------------------------------------------------------------------
    \1\ The information appears at the conclusion of the hearing, 
except for the Bennett, BITAG, and Rysavy reports and Mr. Rysavy's 
comments, which have been retained in committee files and also are 
available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108168.
---------------------------------------------------------------------------
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. I will remind our Members that, pursuant to 
committee rules, they have 10 days to submit questions in 
writing to you, and you all will have 10 days in which to 
respond.
    There being no further business to come before the 
committee, we are adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
